j

Jl

EXHIBIT #1

MEMORANDUM

COUNTY COURT, SUFFOLK COUNTY

TRIAL TERM PART

THE PEOPLE OF THE STATE OF NEW YORK,

BY: BRASLOW, J. C. C.
DATED:

August 22, 2019

vs
COURT CASE NUMBER: 2111-01

EZRA LESLIE,
Defendant.
EMILY CONSTANT, ESQ.
ACTING SUFFOLK COUNTY DISTRICT ATTORNEY
ATTN: TIMOTHY P. FINNERTY, ESQ.
CRIMINAL COURT BUILDING
CENTER DRIVE SOUTH
RIVERHEAD, NY 11901

EZRA LESLIE, DIN #03-A-3404
c/o CLINTON CORRECTIONAL FACILITY
PO BOX 2001
DANNEMORA, NY 12929-2001

The defendant was convicted in 2003 after a jury trial of committing the
crime of murder in the second degree and was sentenced by this Court to an
indeterminate term of imprisonment of twenty-five years to life plus a fine of.
$5,000. The defendant appealed his conviction which appeal affirmed the
defendant's conviction (see People v. Leslie, 41 A.D.3d 510). That Court found
that the defendant's statements to the police were properly admitted into
evidence as a confession and an admission, and that this Court properly
declined to charge the jury with respect to the affirmative defense of extreme
emotional distress. That Court also found that the. defendant's contentions
raised in.his supplemental pro se brief concerning the admission into evidence
of his statements to police, the racial composition of the jury, ineffective
assistance of counsel, the charge to the jury, and prosecutorial misconduct
were without merit. Defendant's motion for leave to appeal to the Court -of
Appeals was denied (see People v. Leslie, .9 N.Y.3d 923) as was his motion for
reconsideration (see People v. Leslie, 9 N.Y.3d 1007).
The defendant also filed a petition for federal habeas corpus relief which
was denied. '(Leslie v LaValley, 2014 US Dist LEXIS 9468'9 [EDNY July 11, 2014,
No. - 10-CV-2391(JS) ] ) That Court found that Petitioner's claims that he was
denied his Sixth Amendment right to effective assistance of trial counsel, that
he was denied his Sixth Amendment right to effective assistance of appellate
counsel; and that he was denied his due process and fair trial rights when this '
Court denied Petitioner's motion to vacate judgment despite Petitioner's
showing of newly discovered evidence; were without merit.
The defendant also filed a series of motions, pursuant .to CPL 440.10 all of
which were denied by this Court.
The defendant has now filed another-motion pursuant to CPL 440.10 seeking
an order vacating his conviction. The motion is rooted in McCoy v Louisiana,
___ US ___ , 138 S Ct 1500 [2018]) in which the' Court held that the Sixth
Amendment rights of defendant in that case, who was charged with three murders,
were violated because even though he vociferously insisted that he did not
engage in the charged acts and objected to any admission of guilt, the state

trial court permitted counsel at the guilt and sentencing phases of the capital
trial to tell the jury that defendant was guilty.of committing the charged
murders; that Counsel could not .admit his client's guilt of a charged crime
over the client's intransigent objection to that admission, and violation of
a defendant's Sixth Amendment secured autonomy constituted structural error,
warranting a new trial, because the admission blocked the defendant's right to
make fundamental choices about his own defense.
The defendant is characterizing his argument as new evidence, which it is
not, but is based on the recent holding enunciated by the U.S. Supreme Court.
The defendant argues that notwithstanding his objections to his attorney,
his attorney admitted to the Court and jury that the defendant did shoot and
kill the victim of this crime.
The colloquy the defendant points to is where the. defense counsel tells
the Court and the prosecutor that he never said that the defense was that the
defendant did not do it. That statement was at sidebar and in response to the
prosecutor's statement in which she assumed that defense counsel's trial
strategy was that the defendant did not do it. Defense counsel was simply
denying that he ever admitted to anyone what his trial strategy was, whether
it was that the defendant did not do it' or anything else.
As held in (People v Murphy,' 168 AD3d 632 [1st Dept 2019])and (People v
Strong, 165 AD3d 1589 [4th ' Dept 2018]) defendant's reliance on McCoy v
Louisiana (584 US, 1.38 S Ct 1500 200 L Ed 2d 821 [2018] ). is misplaced because
counsel did not concede his client's guilt.
Moreover, any suggestion' by defense counsel that defendant did shoot the
victim was in the context of explaining that even if the People proved that the
defendant shot the victim they still would have to prove mens rea as an element,
of the charged crime. This does not rise to a violation of the holding in
McCoy.
The defendants secondary arguments regarding purported prosecutorial
misconduct are record based and were either reviewed on appeal or should have
been raised on appeal. (CPL § 440.10(2). (People v.Stewart, 16 NY3d 839
[2011]); (People v Tyrell, 22 NY3d 359 [2013]).
The Court has reviewed and considered defendant's remaining arguments and
finds them to be without merit.
----- -—*
irety.
Accordingly, the defendant's motion is denied in its,
EN‘

2

EXHIBIT #2

SUPREME COURT OF THE STATE OF NEW YORK
APPELLATE DIVISION: SECOND DEPARTMENT
•X

THE PEOPLE OF THE STATE OF NEW YORK,
NOTICE OF ENTRY

Plaintiff-Respondent,

App. Div. Case No.
2019-11831

- against -

Suffolk Co. Indictment No.
2111-01

EZRA LESLIE,
Defendant-Appellant.
X

SIR:
PLEASE TAKE NOTICE that the enclosed Order was duly entered and filed in the
Office of the Clerk of the Appellate Division, Second Department, on or about December 24,
2019.
DATED:

January 6’, 2020
Riverhead, New York
Yours, etc.,
TIMOTHY D. SEMI
District Attorney of Suffolk County
Criminal Courts Building
200 Center Drive
Riverhead, New York 11901
(631) 852-2500

To:

Ezra Leslie: DIN #03A3404
Defendant-Appellant pro se
Clinton Correctional Facility
P.O. Box 2001
Dannemora, New York 12929

■«'

Supreme (Enurt of tljr £>tatz of
fork
Appellate Slutaton : ^econb 5uiictal Separtment
M268454
SL/
FRANCESCA E. CONNOLLY, J.

2019-11831
DECISION & ORDER ON APPLICATION
The People, etc., plaintiff,
v Ezra Leslie, defendant.
(Ind. No. 2111/01)

Application by the defendant pursuant to CPL 450.15 and 460.15 for a certificate
granting leave to appeal to this Court from an order of the County Court, Suffolk County, dated
August 22, 2019, which has been referred to me for determination.
Upon the papers filed in support of the application and the papers filed in opposition
thereto, it is
ORDERED that the application is denied.

t.

FRANCESCA E. CONNOLLY
Associate Justice

December 24, 2019
PEOPLE v LESLIE, EZRA

$

EXHIBIT #3

C

i*

C ^-P P enTn^-0 bed in—^

1

Why would we even, be

2

sound so unbelievable.

3

here?

4

he is not guilty of murde

5

ddllty of - iht^t ionaJJ.y murdering^'her?

Why would Ezra Leslie be here saying that

6

Well, until you hear everything and

7

until you know everything, you can't say that.

8

That is exactly why we are here,

9

gentlemen.

ladies and

10

So I am going to urge you one more

11

time, keep your oath, keep an open mind, wait

12

until all the evidence is in, -.nnt.il you have

13

heard everything in this case before reaching

14

your determinations .

■do-ThatTUS

£ youpkeep to your oath^r~y~bu~rw'il:~l~"'see- that

15

':^^L^drfe~~i s“' notrrqui It y of "'i nt en t i ona 11^

16

•

17

Be ca u~se~~i-f~~y oIT

,

“

----------------------------------------------

--------------------

-

--------------------- --------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------- ----------------------------------

r

CZ

18

Thank you.

19

THE COURT:

20

Miss Merrifield, you want to call

21

Thank you, Mr. Obedin.

your first witness.
Yes, Your Honor.

22

MS. MERRIFIELD:

23

The People call as their first

24
25

witness,

Police Officer Steven Bardak.
THE COURT:

Thank you.

i

EXHIBIT #4

[*1276 )
^^Proceedings

1

Any other requests to charge,

2
3

Miss Merrifield?

4

MS. MERRIFIELD:

5

.THE^COURT

No, Your Honor.
,r.

6

Mr'TTpb e di ny any requests^

^to charge? , A
^ v,. .. ___ •—i -

^MRT~OBEDIN:

7

- 11

Yes-;. Your Honor .__ V-

tTHE^COURT* . . Go:-forward^.

8

^MR”T* QBED INT^I,:am^request4ng::-'thatrtTie^

9
10

nfourt charge^witg?regardAtfdAtH¥irmabiye . - >

li

vde f ense„ of.„extreme~~etfrotrdnai''Kdrs‘turbance .

^ha^^handed^ap^case Jiaw. to* the-

12
13

w

c .--Court

*

3

*Tw!ie’t:K^f y-orw no t^-bhe^c hargeApf ^extreme

14

femo'bi'ohal^di'iturbance should' be given to the__ }

15

Cjury-*is-based .on -what-tKe..Court, of _ Appeals -has

16
17

referred to as /ar two-prong* 'test\__3
First of. all, backing up, the

18

defendant does not have to put forward any

19

evidence or witnesses with regard to extreme

20

emotional disturbance.

21

from the totality of the evidence that was

22

adduced at the trial, whether it be People's

23

witnesses or defehse witnesses.

24
25

It can be determined

The two prong test is that an event
had occurred at or near the time of the incident

EXHIBIT #5

CS^lliSO
1

THE COURT:

2

All right,

sir, go

forward.

3
f

4
-c

. • TV

m

5

■£&*.

SS^^SiliEilSlS14

!>*&

S;;.a-war.ei:o

6
7

\

8

9
10
11
12
, rsi'~n+‘

13
14
^heAway;^op(63^dyt-t^e^way-I^o;i^^rrd^a^t"hr^

15

Gil

16

17
18
19

L

^Strrtiii'Pic-i't~i’e-iiilport~Sftt’~eBat-i

20
21
/-^".-•^■V ->■

A'w--'

-

-

■

—

4?P-

22
>

'

•'.

*;.
■;■-i

ji
■*»

.

.

-,-

23
24

Qhen*.hasl>l3^t^T^iaieK^now^i6H^^^^^U^?«sS5el®e®i^r^

f

25

•_. of" def ens e .

-----^~-

~

*r*. *?< -- * -:■ , XCJjJU "

^r—~Proce edlng s—>
1
2

mistrial.

3

strategies -.

4'

strategies, part of the defendant, not

5

Mr. Obedin's part,

6

outcome of this case.

7

THE COURT:

8
9

The defendant has chose his
We feel this is another attempt., on

to attempt to change the

Mr. Obedin,

can I inquire

of your client?
MR. OBEDIN:

Certainly.

10

THE COURT:

11

MR. OBEDIN:

12

THE COURT:

13

Mr. Leslie, you are aware of what

14

Any objection?
No.
All right.

Mr. Obedin has just put on the record, correct?

15

THE DEFENDANT:

16

THE COURT:

Correct.

All right.

And you know

17

you have had approximately eighteen to nineteen

18

months to prepare for this tria 1 /t^Andtia^tfiaD -

19

i‘nt I am_just advising you that you need 16" ~~J?

20

^jco op erate -wit h your at to rne y,—t hat -he —i-s- b est__

21

ab 1 e -1o^advise ~you~~as~' to~~tHeLstrategy_that you

22

£---- should pursue, during .your- caseQ^And ~th a~tT~ i't 'TgT~7 *

■ 23

o

We oppose any application for

24
25

CTin-your- best' ~iriterests-to—allow-Mr-. Obedin_to
^--^r ep resent~~you in—the-best—way he —know

h o w.

He is a most preeminent and learned

|

]

EXHIBIT #6

^Proceedings

pro07
■}
**».... ." ' *** *

\

1

r^^-^y^^g^at^^jeglllo^akel "t ht-s^BscoM^ _ib

2

V

3

.Becaiisepobyibusiy.,™the..way , that witnessesLwere
Pero"ss~rexa'xnibed and"* the way Ir operie'd vand ‘the* -wdv ~J

4

"

5

____ ________

--------------- ~‘"™

--------------

-

________________________

_________ _—-——

*r-'Voir^dired^was^adl^based 'upon which^par-t-icul-ar

•1 •
i

heory t>f ‘yctef ense ~wT~were going "f 6rward^with._}

6

1^2.1 rhave* attempted- to exp la in-'to""'' ~\

7
8

,*■“

-• basedpapon"~my~experi'ence", "based upon_the manyljt

10

if

V

^--position—was — wi th~regard~-to theory-of-defense^

9

11

SMtlPLesTie^-oVeS' these mTnyTmontHsT7~'WK'a'tr''!ny:

C^~

CUlt ri aTiT’ l^ha ve'“'h ad; based'"updn-"my* Knowl'edge_of

y

12

r-- the—law,-based- *upon -everything that- I^-have ab_an~7

13

Caftorney, which is‘the:f'reason' that he has''me~~toP

f"giye_ him~that—advice-and-to-give
him those *’’**' \
.
--—--------—--------- :------- ----- - ^

14

'^

c opinions^.

15

/-—MrLes lie —is -now back to hi~s__theoryj

16'
17

^_of~defense—and--he—i-s--adamant—that ~ I proceed^on)

18

"his~ theory~of def enset --rAnd—I “feet,__thatf"l5aSed~"}

19

r upon what has' occurred, and -most specif i~calTyJTT?

20

- what ,hajr~+oCcurred'during * the trial vis - a" visf how

21

PPl~have~handled“the~ trial /’’based -on the different

22

■'theories','’ that' Mr?' Les-l-ie is-defense has -been - *

'compromised at ~this''point-:. -Not his theory, "J

■ V

23

~specrfically, but his defense in general

24
V

25

* -•

>-

-.--We have' a significant-rift,

EXHIBIT #7

Proceedings

IB

obviously, between us,

\

' 1008

V '

)

in terms of theories.

And I think that in fairness to him and his

v
r ability to have a full and fair trial, which is
f

ri_ of the utmost importance here,
\C
significant charge, obviously,

this is a very
\

that I think it H

is only appropriate at this time, that Your
Honor relieve tne^as'"counsei and 'grant a mistrial^
and allow Mr. Leslie to have a full and complete,
defense, based upon his theory,

from the outset

^ of the trial:
^ I think that, unfortunately,
*1

that is

^the only remedy appropriate at this point,
ensure a full and fair trial for Mr.
THE COURT:

to 3

Leslie\

Miss Merrifield, do you

want to be heard on this issue?
MS. MERRIFIELD:

Your Honor,

the

People oppose the application for mistrial.
This assistant has actually tried other homicide
cases with Mr. Obedin and knows he is a very
good defense attorney,

And in fact,

the defense is attempting to,

-4!

feel that

at this time to

create another strategy in trying to ask for a
mistrial and ask for a new attorney,

J)

in attempt

to avoid the inevitable, his guilt, overwhelming
guilt in this case.

(J j

EXHIBIT #8

Proceedings

1010 \

1

counsel

2

this court and other courtrooms in this

3

\

And he has tried numerous cases in-

Building; as well as in federal and state courts

4

all through the state.

5

experienced and knows how to go forward in these

6

matters.

7
' 8
9

And he is extremely

So I am just advising you,
Mi. Leslie, that again, you have had nineteen
months to figure out what your strategies should

10

be on this case

11

having so called or appearance problems with

12

your attorney, should not be happening.

13

And at this late date to be

I am going to deny your application,

14

Mr. Obedin,

15

your application for a mistrial.

16

to go along with Miss Merrifield, I believe that

17

Mr. Leslie might be using the change in theories

18

in order to precipitate this court to declare a

19

mistrial and to have you relieved, just to delay

20

this case.

21

to be relieved.

I am going to deny
Again,

I have

--V,

I am not going to entertain that at

22

this time, and you need to go forward with your

23

representation of the defendant.

24

Any other further applications?

25

MS. MERRIFIELD:

Just one, Your

EXHIBIT #9

1341
1

2

Closing-Merrifield

f

anything else.

3

And I submit to you,

ladies and

4

gentlemen,

5

about the total recall that that
man had.

6

Testified on.Friday and came back Tuesday.

7

Nothing changed.

8
9
10
11

to judge James's credibility, think*

Not an iota of his.testimony.

I submit to you,

that man will never

forget what happened that day,

that place,

like

a bad video in his mind.
Every question defense counsel asked

12

him, he corrected the defense
on certain things

13

he left out in the question.

14
15
16

He will never

forget that, what happened to Gwen in front of
him and in front of Olivia.
Now the defense wants to stand here

17

and say to basically feel sorry for this
man.

18

Feel sorry for a man that is
a police officer.

19

That has training and experience in how to

20

handle himself,

21

his police issued weapon and used it to murder

22

his neighbor.

23
24
25

Feel sorry for a man who took

His neighbor.

Feel sorry for a

man that killed this woman in front of her nine
old little daughter in her own home.
are supposed to think he is a family man,

Yoii,
so

I

EXHIBIT #10

■K2?

JAMES JONES

7

1

±lT~Gt~
— —' —

T
x

lie;cl i. U

was a swoosh and -- i put a front door in

and it scrapes the bottom on the seal a little bit, either

4

opening or closing it.

5

again and Gwen was down.

Then I heard a pop, then I heard a pop

Q.

7

So where were you when you heard these noises and
saw Gwen.
go down?

a

A.

Directly behind her.

9

Q. '

So you started to come out of the door?

10

A.

11

she stepped into the hallway first because she

Right, I was coming out the door the same time she was but
was in front of

me.

13

__And Xou heard two pops?

14

freard two pops.

15
16

crmnrj
*_»
w »_Axj.v_i

3

6

J&

And saw her fall down?
‘1

CA.

And I saw her fall down. ' The jfirst pop, Alooked down
theI?
17 C.. haul and ! seen Ezra
standing there point ing - the - gunrushing
18

-towards us down the hallway. He shot another time-as

19

coming, down the hallway and then,-7while

L
20

22
23

24
25

■Jl'

he was__J

she was laying down

there on the floor, he reached'into
the, room that • she. fell; in .'

21

and^fired three more shots at her.

I tried to stop him by,

grabbing his wrist and hitting it up against the door frame of
the door, hopefully he would drop the
gun or the bullets would
miss her.
Q.

7

doorway, stepped out the bedroom door into the hallway, the

2

12

37 '

<7

Was he saying anything, when you saw him come down the hall?
Wayne Gal ante
Grand Jury Reporter

r

(^\mES JONES
He said nothing.

A.

1

, . w/

After.the first -pop U - you

2

Q-

3

the gun?

looked up and could see him with

13

\

4

Yes, I

\A-

could .see'.him’ with the gun

aiming down the hallway

Was- -this a handgun?
5

6

A.

Yes , it was 7/

7

Q.

It appeared to be his 9mm?’

he always carried.
1
- A •. - - His 9mm
with work?
This is the gun he would carry
Qhe always had it.
When I say always
With
work,
at
home.
A.
a a he was coming- down--^
You saw him actually point the gun

8
9
10
11
12
*v

t

the hall?

13

y

Yes, Vseen'him pointing the gun

Ca-

; down at me.and Gwen s .

-'"direction and,~ydu] know, I didn’t know

14 c
15

happen.

16

aid.

fall and I went to her
All I know is I seen my woman

reach for Gwen then you
So you went to

17

Q-

18

almost on top of you?

19
20
21
22
23

A.

what was going to

He was right on top of her.

noticed he was

He came down - - the hallway i

It’s a few
It’s not a big, old long hallway.
are at. By the time I was
good strides and you are at where we
about her, I looked out the
on the way down, you know, to see
this happening and I grabbed his
• corner of my eye and I seen
not that long,

24

wrist.

25

Q-

could see him pointing t
When you say this happening, you
Wayne Galante
Grand Jury Reporter

-3

EXHIBIT #11

993

Jones-People-Direct

n

1

A

Yes.

2

Q

Then there was another shot?

A

Yes .

4

Q

Both of those shots she was standing for?

5

A.

Yes .

6

Q

And then she fell in the room?

7

A

Then she fell in the room.

8

Q

What was -- when you saw the person

3

■

standing in the hallway, could you tell us,

9

observe a weapon in their hand?

10 ■

A

11

m

12

f

r -

17

r-

18

f
V.

21
22

0

23

I didn't see the weapon

Meaning what door?
The doorway where she fell.

This doorway

•' here, when he reached in and started firing.

16

20

Q
: A .

14

19

To be honest,

until it came into the door.

13

15

did you

Q

That is the first time you saw the gun?

A

That is the first time I seen the gun.

-Q

And when he was; in the hallway,

the person

■

was in the hallway when Gwen was in the hallway and

V,

..

-

'you were in the hallway, just outside your bedroom
f •• " •
v door

did you notice what the person was doing down

the hall?
\

A

No it was just like I said, when we walked

24

out of the bedroom, it was a pop,

25

figure coming down the hallway. 1

it was a pop, and a /

t

EXHIBIT #12

r~Jones-Peopie-DiTe“ct
bed.'
2

When she stepped into the hallway,

stepped in right behind her.

^—983 _i

1
I was ,-

f"h eard—a—p op.—--I^iooked^

13
r! 4

Then I heard another pop, and she fell to the ground.

Ps

As I was going to reach for her, to see what was going

do vm^bheilHa llway —I—see n—a—f-lgu r e—s tand-i-n g_the re^_^^

I

I .
}

■! 6

!

on, what happened,

I see this gun, cTrrsee—th-i-srrbody----^

t 7

coming -out, ofiimy-corner—of—mv~ey.e

8

in past my head into the doorway.

*

i_see-a-'gun~come__

9

Q

Where was Gwen then?

ilO

A

Gwen is laying on the floor.

Q

Where?

A

In the office.

i

}

ill
tr

12

Well, computer room.

13

was where we had the computer.

14

got shot,

15

right next to the master bedroom.

16
17

Q

She fell.

It

When she

she fell into the next doorway, which is

At this point in time did you see who had

shot her?

18

A

Yes .

19

Q

Who shot her?

20

A

Ezra Leslie.

21

Q

After she fell on the ground, you said you

22

were down on the floor by her or what,

23

occurred next?

24

A

if anything,

I was reaching down to assist her and I

t-.

25

seen the gun coming through past the corner of my eye.

EXHIBIT #13

l
2

didn't shoot her in the toe.

3

shots anywhere else in this house fired other

4

than into Gwendolyn Brodie's body,

5

struggle over this weapon.

6

control.

1

7

10

There is no

There is no loss of

5r\

I am out of my mind .^ This is center ^

C mass right at this woman',

8
9

There were no

|j>.You have_the Medica 1 . Examinerl_s
'diagram just'so you

can'lls ee'exa-c tl y._whe-r e-al'l}

fr~
' ^q]}€se^bul'lets_landed7

11

1
‘l

Gent e r—ma s s -.-j"

And this one, and I submit to you,

12

ladies and gentlemen,

13

exhibit

14

these photographs back,, you can take all of this

15

evidence back with you.

16

the Court for it when you deliberate.

17

an if you look at People's

-- by the way, you can take all of

You just have to ask

I want to show you People's exhibit 7

18

in evidence.

19

Gwen's hallway at 1072.

20

This is the hallway.

This .is

You recall Dr. Wilson's testimony,

21

when she is standing in that hallway,

22

received gunshot wound A.

23

upright position.

24

tangential entry, the way it stayed straight

25

across, she is upright.

f

that.she

When she was in an

He'can tell because of the

And that it went from

ft

EXHIBIT #14

4-H

LrGUNSHffTKESIDU¥&

\

'

L.

J

Lab Fits
Case File

~J

1,02,1

Specimen:

Oh 5121
0 !-S3 S&73

l' 02,1

Marked:
Location of other
marks, initials:

AftTACedT TO hlfiks
S

Description:

)
MICROSCOPIC EXAMINATION
Specimen/hole no.:

J>-2-Mr/eS */V 'Z.tffie/L 7>l,Q3~
G- ~ l~ /Wf fieuw) Cef-r foak.e~r~

Bullet wipe:
hi
-J
A

Ripping/tearing:

§

z
*
<
o
r~

do

i

Smoke:

o

//<?

/}U '(£) - toolSis-r- C^l P/^SS/rff
r(6

. Singeing/burning:
Gunpowder/type:

AuJ/er

I

c

c
m
-<4

M
N

z

UdK

c
z
w

Sample:
Distance from hole:

m
»
!

6W/<
4,

c
iy‘:'

CHEMICAL EXAMINATION
Specimen/hole no.:

)

2+c

(
%

o

Griess test:

-7
)

Sodium Rhodizonate:

k »

f/£&.

'V'1
i-

5f
(

■

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF SUFFOLK
■X

THE PEOPLE OF THE STATE OF NEW YORK
Plaintiff,

4

Indictment: # 2111-01

-againstEZRA LESLIE
Defendant.
X

7

AFFIRMATION & MEMORANDUM OF LAW
IN SUPPORT OF A MOTION TO VACATE
JUDGMENT PURSUANT TO
CRIMINAL PROCEDURE LAW § 440.10 (1) (C) (G) (H)

Suffolk County Court Indictment: 2111-01
Judge S. Braslow

Respectfully submitted,

EzraJ^eslie, Din# 03-A-3404
Defendant, “Pro-Se”
Clinton Correctional Facility Main
P.O. Box 2001
Dannemora, New York, 12929

Submitted On: May 23rd, 2019

/

i
1

/
/

f

i

TABLE OF CONTENTS
Pages
.1

Cover Page.
Table of Contents

II

Table of Authorities.

Ill

Questions Presented

IV

Preliminary Statement.

1

Statement of Facts .

7

I. Argument.

14

Point One,

14

DEFENDANT WAS DENIED fflS DUE PROCESS RIGHTS TO A FAIR TRIAL AS
ENUMERATED UNDER THE SIXTH AMENDMENT TO THE UNITED STATES
CONSTITUTION AND ARTICLE 1 § 6 OF THE NEW YORK STATE
CONSTITUTION., WHERE NEWLY DISCOVERED EVIDENCE SHOWS THAT THE
DEFENDANT’S CONVICTION SHOULD BE REVERSED BECAUSE OF
“STRUCTURAL ERROR”, NOT SUBJECT TO HARMLESS ERROR REVIEW.
Point Two.....

... 25

DEFENDANT WAS DENIED HIS DUE PROCESS RIGHTS TO A FAIR TRIAL AS
ENUMERATED UNDER THE 6th & 14th AMENDMENTS TO THE UNITED STATES
CONSTITUTION AND ARTICLE 1 § 6 OF THE NEW YORK STATE
CONSTITUTION.,WHERE “PERVASIVE PROSECUTORIAL MISCONDUCT”
REQUIRED REVERSAL OF DEFENDANT’S CONVICTION AND RETRIAL.

II. Conclusion....
III. Exhibits......

t

.46
1 to 19 after page.46

-II-

TABLE OF AUTHORITIES
Pages

Federal Cases:
McCoy v. Louisiana.
138 S.Ct. 1500 (2018),

15,19,21,22,23,24,25

STATE CASES
People v. Jones,
134 A.D. 3d 1588, 22 N.Y. 3d 755(Dec., 31st ,2015 )......
People v. Ezra Leslie,
41 A.D. 3d 510, 837 N.Y.S.2d 304(2nd Dept. 2007)..........
People v. Ezra Leslie,
844 N.Y.S.2d 178(2007)................ .................................
People v. Ezra Leslie,
850 N.Y.S.2d 395....................................................... ......
People v. Daviel McCummings,
124A.D. 3d 502 (2015)..............................................
People v. Powell,
165 A.D. 3d 842, 84 N.Y.S. 3d 563, (2nd Dept. 2018)
People v. Redd,
141 A.D. 3d 546 (2016),
People v. Rozier,
143 A.D. 3d 1258, 2016)
People v. Sides,
75 N.Y. 2d 822 (1990).
New York State Statutes:
C.P.L. §440.10 (1) (C)(G)(H).
C.P.L. §440.10 (1)(G-1)......
C.P.L. §440.10 (1)(G)(H).....
C.P.L. §460.15.......................
CPL 470.05 [2])......................
CPL 470.15[6][a])................

.27, 28,41,43,45
1

7,8
7,8
.22 .
.40
.25,26, 42, 43

32,41
.22

1,6,9,14,25
,4

8,9,10,10,11,12
.............9,11,12
.28
.32, 41

Constitutional Provisions:
Sixth and Fourteenth Amendments.

ii, 5,14, 15,16,17,21,22,23,24,25

Article 1 § 6 of the New York State Constitution

ii,5,14,25

Legal Treatise:

Jurisprudence §2931 2d. 34A. N.Y................................
Jurisprudence §3477 2d. 34B. N.Y................................
§ 18:241, New York Secondary Sources.............................
Scientific Evidence 5th Edition § 14.13, Gunshot Residue.

-III-

14
14
.25
,32

QUESTIONS PRESENTED
WAS DEFENDANT DENIED fflS DUE PROCESS RIGHTS TO A FAIR TRIAL AS ENUMERATED
UNDER THE SIXTH AMENDMENT TO THE UNITED STATES CONSTITUTION AND ARTICLE 1
§ 6 OF THE NEW YORK STATE CONSTITUTION., WHERE NEWLY DISCOVERED EVIDENCE
SHOWS THAT THE DEFENDANT’S CONVICTION SHOULD BE REVERSED BECAUSE OF
“STRUCTURAL ERROR”, NOT SUBJECT TO HARMLESS ERROR REVIEW.
This question should be answered yes!
WAS DEFENDANT DENIED HIS DUE PROCESS RIGHTS TO A FAIR TRIAL AS ENUMERATED
UNDER THE 6th & 14th AMENDMENTS TO THE UNITED STATES CONSTITUTION AND ARTICLE
1 § 6 OF THE NEW YORK STATE CONSTITUTION,WHERE “PERVASIVE PROSECUTORIAL
MISCONDUCT” REQUIRED REVERSAL OF DEFENDANT’S CONVICTION AND RETRIAL.
This question should be answered yes!

-IV-

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF SUFFOLK
X

THE PEOPLE OF THE STATE OF NEW YORK,
Plaintiff,
-againstEZRA LESLIE

Indictment # :2111 -01.
Defendant.
X
I. PRELIMINARY STATEMENT

I, Ezra Leslie, former N.Y.P.D. Narcotics/Vice Undercover Detective, with no prior arrest record
(hereinafter the Defendant) respectfully submits this Motion to Vacate the Judgment of Conviction Pursuant
to Criminal Procedure Law § 440.10 (1)(C) (G) (H). Defendant respectfully request for this Honorable Court
to vacate the judgment of conviction entered against the defendant on June 12,2003>. Defendant was unjustly
convicted of murdering N.Y.P.D., Sergeant Gwen Brodie, (hereinafter the victim) despite Forensic Science,
D.N.A. & Biological Trace Evidence ordered by the “People” on defendant and his clothes clearly
establishing defendant did not fire his weapon, Inter alia.
On September 20, 2001, in the early evening hours defendant, former N.Y.P.D. Narcotics/Vice
Undercover Detective Ezra Leslie, {the defendant} and the {victim,} N.Y.P.D. Sergeant Gwen Brodie, had
an argument about the status of defendant’s sexual relationship with the victim’s 29 year old sister Tanya
Brodie. This argument was in front of the victims jealous abusive drug using live in boyfriend James Jones,
{the true murderer}. Defendant had told the victim that Tanya and defendant were just friends and the sexual
relationship with the victim’s sister Tanya, had been over approximately two months ago in mid July 2001,
two months before James Jones murdered the victim and tried to murder defendant on September 20th 2001".
The victim and defendant argued because the victim did not believe the sexual relationship was over despite
the victim’s sister, herself Tanya Brodie, telling the victim on her phone that we were just friends and our

-1-

sexual relationship was over since the middle of July 2001. please see {Grand Jury page 23, lines 8 to 11,
Testimony Tanya Brodie} telling the victim she was not having sex with the defendant as the victim kept
calling her sister Tanya a liar angering Tanya to the point that Tanya hung up on the victim.
Defendant “did not murder” the victim, after standing there listening to the victim and defendant
arguing James Jones {the true murderer}, figured out for himself that the victim and defendant were “much
more than just friends” and planned to murder the victim and defendant. After the victim and defendant
stopped arguing on our own accord defendant tried to go to his house next door to make some phone calls
since the victim’s home phone was restricted and could only dial out to 911 due to James Jones, {the true
murderer} not paying the victim’s phone bill as he said he would do. Jones asked defendant to please stay
so the victim, James Jones, and the defendant could talk about the relationship between the victim and the
defendant, but defendant told Jones he had to go to his house to make some phone calls. James Jones then
pleaded with defendant to come right back to the victims house after making his phone calls under the guise
the three of us would talk about the relationship between the victim and defendant and what Jones heard us
saying during the argument. James said to just come in because he was going to leave the door open as he
and Gwen done for me in the past. A little bit past dusk upon returning to the victim’s house, the front door
was unlocked just as James said it would be. Defendant entered the house, the house was dark, I called the
victim, then walked to the start of the hallway. The victim came out of her bedroom into the hallway, then
we both started walking towards each other in the direction of the light switch in her hallway to turn on the
light.
Before the victim and defendant made it to the light switch James Jones quickly snuck up behind
defendant from the dinning room area to the left just behind me and struck defendant over the back of my
head with something hard knocking me to my knees. The force from the initial blow forced defendant’s 9
mm Glock pistol, to fall out of the waist band of my sweat pants on the floor just behind me. James quickly
picked up my weapon and shot the victim from down the hallway, then ran just past me and fired more shots

*2-

at the victim from the hallway as the victim was laying on the floor with her upper torso in the doorway of
her computer room and her legs were in the hallway. Dazed, hurting and shaking in a attempt to stop Jones
from firing the weapon I lunged at James as he was shooting the victim, Jones then tried to turn the weapon
on me. I grabbed the barrel of the gun and twisted it out of James hand and the gun fell on the floor, I then
retrieved my weapon. James immediately positioned his upper body over me fighting to regain possession
of the weapon as I now had the weapon in my hand while James and I fought down the length of the hallway
as James was forcefully trying to get the weapon back. Still dazed, shaking and feeling like I was going to
lose consciousness I positioned myself and held James at bay with my weapon and told him to call 911
“right now”. Still shaking and fearing I was going to pass out and give James the opportunity to finish what
he started, to kill the victim, and me, I left the victim’s house. As I walked to my house I told one of my
daughters to call “911" as I gave my weapon to my brother, now retired Suffolk County Detective Patrick
Leslie who broke the weapon down into a few parts and placed the weapon on the front steps of my house
so the arriving uniformed officers would not have any reasons to shoot anyone upon their arrival in a few
minutes. I then tried to regain my faculties by leaning on the banister of my front steps. James Jones, had
one true agenda, to ambush defendant in the victim’s dark house and murder us both after finding out the
victim and defendant always had a serious ongoing sexual relationship with each other since 1991.
!

Defendant further submitted his August 18th 2017, Free Standing Claim Actual Innocence 440
Motion in support of his appeal from an order of Suffolk County Court (Hon. Stephen Braslow, J.) dated
January 23, 2009, unjustly denying defendant’s October 2008 Motion without holding an Evidentiary
Hearing {despite Sworn Affidavits} that were confirmed true by Police Departmental Documents supporting
defendant’s allegations, pursuant to Section 440.10, of the Criminal Procedure Law.
Forensic Scientific Evidence, D.N.A. Evidence, and Trace Evidence, categorically examined by
the {People’s, Suffolk County Crime Laboratory} established with “Scientific Certainty” there was “No
i

Evidence at all to validate that the defendant fired his weapon,” making defendant “Actually Innocence” and

-3-

!

unjustly convicted of Murder in the Second Degree. Suffolk County Police Officers {Bardak & his partner
Walsh} arrived at the crime scene about four minutes after the victim was shot and were quick to judgment
when they saw blood on defendant’s “bright white” sports shirt and assumed defendant was the murderer
despite defendant telling the arresting officer “Bardak” that James Jones shot the victim with my weapon.
Scientific and Forensic testing by the {People’s, Suffolk County Crime Laboratory} later established with
“Scientific Certainty” that the blood on defendant’s clothes was the “defendant’s very own blood” with
“No Blood” of the victim being on the defendant, please see {The November 9lh 2001 Suffolk County
Forensic Crime Laboratory scientific testing results from defendant’s shirt showing “D 2.22 " blood stains
of defendant’s blood}. Please see {The November 26th , 2001 and February 7th 2002, Serology Reports,
confirming defendant’s blood stains on his shirt}.
Defendant’s August 2017, “Freestanding Claim of Actual Innocent” Motion Pursuant to Criminal
Procedure Law § 440.10 (1) (H) (G-l) had established by clear and convincing evidence that defendant is
“Actually Innocent”, and that no trier of fact would have convicted the defendant of murder under a
reasonable doubt standard, in the light of all available evidence in defendant’s actual Innocence 440 motion
which was deliberately withheld from defendant’s trial by the prosecutor and defendant’s Court appointed
attorney, this Court should properly dismiss the accusatory instrument against defendant.
Defendant will establish by clear and convincing evidence that the victim ’ s Eight year old daughter
Olivia, did not see what truly transpired in the hallway on that tragic night, but instead was allowed to sit
next to James Jones, {the true murderer} and listen to him lie to a officer about his untrue version of what
transpired. James Jones, the victim’s jealous abusive live in boyfriend was the one who murdered the victim
and tried to murder defendant. Had the Suffolk County Police Department properly tested James Jones and
his clothes as they tested defendant and his clothes, all would have known back in 2001 that James Jones was
the true murderer.
Defendant will establish that had court appointed 18-B trial counsel {Glenn Obedin} who trial Judge

-4-

Braslow, “would not allow” defendant to “replace” utilized the exculpatory evidence he and prosecution
always possessed, but deliberated failed to use, defendant would have been “easily exonerated at trial”.
Had African American defendant been Constitutionally allowed to replace his ineffective trial
attorney, defendant would not have been “Unjustly Convicted by an All Caucasian Jury” and All
Caucasian alternate jurors whom Judge Braslow, allowed the prosecutor and defendant’s Court appointed
lawyer to chose against defendant’s will. Defendant’s Right to have “Conflict Free Representation” was
severely violated as trial Judge Braslow allowed the prosecution and defense chose an all Caucasian Jury
and all Caucasian alternative Jurors for an African American defendant.
Defendant’s August 2017, Actual Innocence 440 Motion clearly established defendant’s Due
Process Rights to have a “Fair Trial” as Enumerated under the 14th Amendment to the U. S. Const, and Art.
1 § 6 of the N. Y. S. Const, was violated where the Trial Court, and the prosecutor “Violated Requirements
of the Brady Rule” by deliberately failing to disclose results of Polygraph Test {Lie Detector Test} given
by State to two of the three prosecutions star witnesses who failed their Lie Detector Test Inter alia.
.

Defendant’s August 2017, Actual Innocence 440 certainly established by clear and convincing

evidence that the District Attorney’s Office and the prosecutor intentionally failed to inform the Court and
Jury that two of prosecutions three star witnesses had “Been Arrested with Criminal Records” before they
were allowed to testify, and the third witness, an eight year old child’s testimony was “bombarded with
serious inconsistencies” and untruths undeniably proving she did not see what truly transpired. The
prosecution and defense “made absolutely no effort” to correct false and misleading testimony and factual
inconsistencies they had proof was false, misleading and inconsistent.
After reading this May 23rd, 2019, 440 Motion, any Court will certainly see defendant was in fact
unjustly convicted of murder by way of defendant’s Sixth Amendment and Due Process Right to have
a fair trial being violated by defense counsel and trial court not allowing defendant to chose his own
defense as trialcounsel told the Court and jury defendant was guilty without defendant’s permission

-5-

and by prosecution committing “Pervasive Prosecutorial Misconduct” during trial and the
summations by deliberately misrepresenting evidence inter alia as trial counsel was factually ineffective
for allowing the misconduct and the violations of defendant’s rights to go unchallenged. The {Peoples
very own Suffolk County Crime Laboratory} established with “Scientific Certainty” there was “No evidence
on defendant or his clothes to prove defendant ever fired his weapon”, making defendant a actually
innocence person.
Wherefore, this Court should issue an order granting defendant’s May 23rd, 2019, 440 motion in
its entirety and vacate defendant’s conviction or, in the alternative, grant defendant an Evidentiary Hearing,
to resolve the factual Sixth Amendment Violations levied against defendant preventing defendant from
having his right to chose his own defense at trial, and to resolve complicated factual allegations relevant to
defendant’s actual innocence documents proving he didn’t fire his weapon, to resolve the complicated factual
allegations against the “Pervasive Prosecutorial Misconduct”, and resolve the factual ineffectiveness of
defendant’s trial counsels performance. Defendant’s May 23rd, 2019, C.P.L. §440.10 (1) (C) (G) (H), motion
will certainly demonstrate a “Prima Facie Showing” of defendant’s Sixth Amendment Rights being
violated, warranting a retrial, and lastly, will demonstrate how “Pervasive Prosecutorial Misconduct”
certainly warranted defendant a retrial.

-6-

STATEMENT OF FACTS
1. Defendant was originally charged with one count of Intentional Murder and one count of
Depraved Indifferent Murder in the Second Degree.
2. Defendant was arraigned on September 21, 2001. At the arraignment defendant entered a plea
of “not guilty” and was denied bail.
3. On December 11, 2002, at defendant’s Huntley Hearing Proceeding, the defendant’s Court
Appointed Attorney and the prosecutor “knowingly exacerbated false testimony” from Suffolk County Police
Officer Bardak about alleged Police Misconduct at the Crime scene by the defendant and his brother Suffolk
County Det. Patrick Leslie, that {I.A.B.} fully exonerated Det. Patrick Leslie from doing “anything wrong”
approximately one year after defendant’s trial. Both should be cleared, untruths were about us both.
4. In late April 2003Voir Dire began, an on May 1st, 2003, defendant’s trial began.
5. On May 15th, 2003, the defendant, an African American former N.Y.P.D. Narcotic’s/Vice
Undercover Detective with no prior criminal record was “Unjustly Convicted” of murder in the second
degree in a little over 30 minutes by the all Caucasian Jury selected by the defendant’s Court appointed
Lawyer and the Prosecutor against the defendant’s will and without his permission.
6. On June 12th, 2003, the defendant was sentenced to 25 years to life in prison (Judge Braslow).
7. On June 16th, 2003, the Suffolk County District Attorney’s Office and the County Clerk’s Office
were both served with Notices of the defendant’s intent to appeal his conviction.
8. On January 9th, 2004, the defendant requested permission from the Appellate Division - Second
Department to appeal as a poor person.
9. On February 24th, 2004, defendant was informed by the Appellate Division - Second Department
that his application for poor person’s relief was granted.
10. On June 5th, 2007, the Appellate Division - Second Department affirmed the defendant’s
conviction, People v. Ezra Leslie, 41 A.D. 3d 510, 837 N.Y.S.2d 304 (2nd Dept. 2007) Howard J. Miller,

-7-

J.P.,DAVID S. RITTER, FRED T. SANTUCCI, and ANITA R. FLORIO, J.J. present.
11. On June 12th, 2007, defendant’s Court appointed Appellate Counsel filed an Application Seeking
Leave to Appeal to the New York State Court of Appeals.
12. On June 28th, 2007, defendant filed an Application for Reconsideration/Re-Argument of the
Appellate Division - Second Department’s June 5th, 2007, decision.
13.

On September 14th, 2007, defendant’s Reconsideration/Re-Argument Application to the

Appellate Division - Second Department was denied.
14. On September 20th, 2007, defendant’s Application Seeking Leave to Appeal to the New York
State Court of Appeals was denied by the Hon. Carmen Beauchamp Ciparick, Associate Judge of the Court
of Appeals, People v. Ezra Leslie, 844N.Y.S.2d 178 (2007).
15. On October 18th, 2007, defendant filed an Application for Reconsideration/Re-Argument of the
previous Application to the New York State Court of Appeals.
16. On December 20th, 2007, the New York State Court of Appeals denied defendant’s October 18*,
2007, Reconsideration/Re-Argument motion from their September 20th, 2007, decision, Hon. Carmen
Beauchamp Ciparick, Associate Judge of the New York state Court of Appeals, People v. Ezra Leslie, 850
N.Y.S.2d 395.
17. In October 2008, defendant respectfully submitted a Criminal Procedure Law § 440.10 (1) (G)
(H) motion consisting of a “55 page” Memorandum of Law with a separate “60 Exhibit” Appendix of
Exhibits Supporting Proof that defendant’s allegations are true to the Supreme Court of the State of New
York, Suffolk County.
18. On January 7th, 2009, defendant received a four page [15 Part] Affirmation In Opposition from
the Suffolk County District Attorney’s Office against defendant’s October, 2008 C.P.L.§440.10 (1) (g-h)
motion to vacate his conviction.
19. On January 29th, 2009, defendant mailed off his Affidavit In Reply with four Intra Exhibits to

-8-

the Peoples January 7th, 2009, four page [15 Part] Affirmation In Opposition against defendant’s October,
2008 C.P.L.§ 440.10 (1) (g-h) motion to vacate his judgement of conviction.
20. In the P.M. mail on January 29th, 2009, defendant received a two page Memorandum dated
January 23rd, 2009, from Suffolk County {Judge Braslow}, (defendant’s trial Judge) denying defendant’s
C.P.L.§ 440.10 (1) (g-h) motion to vacate his judgement of conviction in it’s entirety. Defendant’s C.P.L.
§ 440.10 (1) (G-H) was denied without an Evidentiary Hearing despite several included Sworn Affidavit’s
and Police Departmental Documents contradicting the sworn testimony from police officers and other
prosecution witnesses. Defendant’s C.P.L. § 440.10 (1) (G-H) was still denied despite A.D.A. Barman’s
deliberate lie in his January 7,2009 Opposition Motion in {part, 13} where A.D.A. Bannan “Blatantly lied
to the Lower Court by falsely stating the defendant’s C.P.L. § 440.10 (1) (G-H) motion did not contain any
sworn allegations to support his allegations “knowing defendant’s C.P.L. § 440.10 (1) (G-H) motion
contained several sworn affidavits that were supported with Police Departmental Documentation proving the
sworn affidavit’s were factually true warranting the defendant a new and fair trial.
21 On February 20th, 2009, defendant respectfully submitted an Application requesting permission
to Appeal pursuant to Section 460.15 of the Criminal Procedure Law, and all attached paperwork to the
Appellate Division 2nd Dept, seeking permission to Appeal the Lower Court’s January 23rd, 2009, decision
which denied defendant’s October, 2008 C.P.L.§ 440.10 (1) (g-h) motion to vacate his judgement of
conviction.
22.0n July 23rd, 2009, the Appellate Division Second Department denied defendant’s February 20th,
2009, Application requesting permission to Appeal the denial of defendant’s October, 2008 C.P.L.§ 440.10
(1) (g-h) motion to vacate his judgement of conviction pursuant to Section 460.15 of the Criminal Procedure
Law.
23. On July 29th, 2009, defendant respectfully submitted a Petition for a Writ of Error Coram Nobis
consisting of a “61 page” Memorandum of Law including defendant’s “Actual Innocence” claim with

-9-

evidence proving with Scientific Certainty the petitioner “was not” the shooter. The Actual Innocence claim
and more was supported with a “58, Exhibit” Appendix of Exhibits to the Appellate Division Second
Department for their review.
24. On August 7th, 2009, defendant respectfully submitted a Notice of Motion for Re-Argument of
defendant’s {February 20th, 2009, Motion Pursuant to C.P.L. 460.15} that was denied on July 23rd, 2009, to
the Appellate Division Second Department for their review.
25. On January 5th, 2010, the Appellate Division 2nd Dept. Denied defendant’s August 7*, 2009 Re­
argument Motion of the Appellate Division’s July 23,d, 2009, denial of petitioner’s Motion pursuant to
C.P.L.460.15.
26. On “January 25,2010" petitioner received the “January 5* 2010 denial” of defendant’s 61 page,
July 29,2009 Writ of Error Coram Nobis which included 58 exhibits irrefutably proving the defendant was
telling the truth about his allegations.
27. On January 29th, 2010, defendant submitted an application to the N.Y.S. Court of Appeals
seeking leave to appeal the Appellate Division 2nd Dept. 01/05/10 denial of petitioner’s Writ ofError Coram
Nobis.
28. On March 18th, 2010, the New York State Court of Appeals denied defendant’s January 29th,
2010, application seeking leave to appeal the Appellate Division Second Department’s denial of defendant’s
July 29th, 2009 Writ of Error Coram Nobis.
29. On May 4th 2010, defendant submitted a C.P.L. § 440.10 (1) (G) arguing, Newly Discovered
Evidence to the Supreme Court, Suffolk County. Defendant’s May 4* 2010,C.P.L.§440.10(l)(g) contained
“Transcribed Transcripts” from the April 2008, Internal Affairs Bureau telephone interview between the
{I.A.B.} Sergeant Detwiler and the defendant with {I.A.B.} Sergeant Detwiler clearly telling the defendant
that his office had investigated the defendant’s brother, {Det. Patrick Leslie} about misconduct allegations
at the scene, and their investigation did not find Det. Patrick Leslie guilty of committing any police

-10-

misconduct and ruled all accusations against Det. Patrick Leslie was “Unfounded”.
30. On May 11, 2010, defendant submitted a 76 page 10 Exhibit Habeas Corpus to the Eastern
District of New York. On September 14th, 2010, defendant submitted a 32 page 5 Exhibit Traverse to the
Eastern District of New York.
31. On July 14*, 2010, Judge S. Braslow denied defendant’s second C.P.L. §440.10 (1) (g) motion
and this time stated: The defendant did not raise any new evidence which ifpresented at the defendant's trial
would have been more favorable to the defendant. Specifically, the issues proffered by the defendant as new
evidence relate to credibility oftrial witnesses. However, the witness credibility was the subject ofsignificant
scrutiny during trial and this Court is not convinced that the purported new evidence would have had any
impact in favor of the defendant with respect to the jury’s verdict.
32) On June 28, 2011, defendant submitted three copies of a June 24, 2011, - C.P.L. § 440.10 (1)
(C)(G)(H) Motion arguing Newly Discovered Evidence with definitive proof defendant’s brother was
investigated and cleared by the S.C.P.D. {I.A.B.} to the Suffolk County’s Clerk & sent one copy to the
District Attorney’s Office. This June C.P.L. § 440.10 (1) (C) (G) (H) Motion by the defendant has
“definitive proof’ from the Suffolk County Police Department Internal Affairs Bureau that the defendant’s
brother, Suffolk County Detective Patrick Leslie “was in fact Criminally Investigated by the Internal Affairs
Bureau for alleged Police Misconduct” at the scene of the murder, and cleared from doing anything wrong,
about alleged police misconduct alone, and together with the defendant, Inter alia. The Internal Affairs
Bureau “Exonerated Det. Patrick Leslie” from doing the false accusations of police misconduct by himself
and together with the defendant. The Internal Affairs Bureau’s decision to exonerate Det. Patrick Leslie is
proof all the accusations against Det. Patrick Leslie in regards to police misconduct was unfounded “{Did
Not Happen} ”. Had Det. Patrick Leslie did what officer’s Bardak & his partner Walsh falsely testified about,
Det. Patrick Leslie would have been prosecuted instead of exonerated. Det. Patrick Leslie could not have
been cleared without clearing the defendant because the false testimony accused the “Defendant, former

-11-

N.Y.P.D. Narcotics/Vive Undercover Det. Ezra Leslie and his brother, Suffolk County Det. Patrick Leslie”
of doing the very same thing together. Had the Court and Jury seen the final {I.A.B.} deposition stating Det.
Patrick Leslie was innocent of “any wrong doing” on September 20, 2001, the Court and Jury would have
knew the sworn testimony by officer’s Bardak & his partner Walsh, accusing the defendant’s brother, Det.
Patrick Leslie, of being involved in Police Misconduct at the crime scene, with the defendant, was Felony
Perjury.
33) On October 4th 2011, Judge Braslow unjustly denied defendant’s June 24,2011, C.P.L. §440.10
(1) (C)(G)(H) Motion arguing Newly Discovered Evidence.
34) On November 9th, 2011, defendant mailed the Appellate Division 2nd Dept. Two copies of my
Motion Pursuant to C.P.L. 460.15. arguing the October 4th, 2011, denial of my June 24, 2011, 440 motion
on Newly Discovered Evidence.
35) On July 25,2012, defendant received a letter dated July 20,2012, from the Appellate Division
Second Department denying my motion with-out giving any reason.
36) In July 2014, the Eastern District of New York unjustly denied my May 11, 2010 Habeas
Corpus.
37) In August of 2014,1 submitted my Appeal to the Second Circuit Court of Appeals arguing the
denial of my Federal Habeas Corpus.
38) On December 1, 2014 the Second Circuit Court of Appeals denied defendant’s appeal of the
denial of defendant’s May 2010, Federal Habeas Corpus.
3 8) On December 27,2014, defendant submitted an Untimely Re-hearing Petition arguing the denial
of my Habeas Corpus. Defendant’s Re-Hearing Petition was untimely because it was 13 days late of the 14
day allowance time to submit a Re-hearing Petition.
^ 39) On March 17th 2015, the Second Circuit Court of Appeals denied my “Appropriately
Entertained” Untimely Re-hearing petition now giving 90 days from March 17th 2015 to file petitioner’s

-12-

Petition for a Writ of Certiorari, pursuant to the Rule 13 of the Supreme Court of the United States which
states : if the lower Court Appropriately Entertains an untimely petition for Re-hearing the time to file the
Petition for a Writ of Certiorarifor all parties “runs from the date of the denial of the re-hearing’’;
40) On April 9th 2015, defendant submitted his Writ of Certiorari {less than 30 days after the March
17,2015, denial ofdefendant’s Appropriately Entertained Re-hearing Petition}, to the Supreme Court of the
United States and a copy to the Suffolk County District Attorney’s Office. Defendant never heard any thing
from the Supreme Court, in November of 2016 defendant’s daughter called the Supreme Court of the United
States inquiring about the status of defendant’s April 2015, Writ of Certiorari. The Supreme Court told
defendant’s daughter that they mailed out a letter dated April of 2015, denying the Writ due to it being
untimely. Defendant’s Writ was not untimely as defendant sent proof to the Supreme Court proving he never
received their April 28,2015 letter and a copy oftheir own Rule 13 stating: ifthe lower Court Appropriately
Entertains an untimely petition for Re-hearing the time to file the Petition for a Writ of Certiorari for all
parties “runsfrom the date ofthe denial ofthe re-hearing’’;. In short, defendant’s Writ of Certiorari was not
late pursuant to Rule 13 of the Supreme Court’s very own rule. At the date of this motion, defendant’s Writ
of Certiorari was never reviewed by the Supreme Court of the United States because of their failure to
comply to Rule 13 of their very own Supreme Court Law.
41) On August 18th, 2017, defendant submitted a 95 page Actual Innocence 440 Motion which
consisted of “Five Points” of arguments. Three of the points were argued for the first time, but that didn’t
stop trial Court from deliberately misstating that defendant had argued everything before. Defendant’s Actual
Innocence 440 motion also included 56 exhibits to support the truth of defendant’s arguments, only for the
lower trial court to ignore scientific facts proving defendant’s innocence inter alia.

-13-

1
ARGUMENT I.
POINT ONE: DEFENDANT WAS DENIED HIS DUE PROCESS RIGHTS TO A FAIR TRIAL AS
AMENDMENT TO THE UNITED STATES
ENUMERATED UNDER THE SIXTH
CONSTITUTION AND ARTICLE 1 § 6 OF THE NEW YORK STATE CONSTITUTION., WHERE
NEWLY DISCOVERED EVIDENCE SHOWS THAT THE DEFENDANT’S CONVICTION
SHOULD BE REVERSED BECAUSE OF “STRUCTURAL ERROR”, NOT SUBJECT TO
HARMLESS ERROR REVIEW.

A. General Application.
Defendant argues this motion under the authority of Criminal Procedure Law § 440.10(1 )(C) (G)(H)
to vacate the judgement of conviction entered against him on June 12th 2003. Newly discovered evidence has
been ascertained since the entry of a judgment based upon a verdict of guilty after trial, which could not have
been produced by the defendant at the trial even with due diligence on his part.
§2931, Due diligence requirement as to newly discovered evidence Jurisprudence 2d. 34A. N.Y.
held: where newly discovered evidence was not available to defendantprior to trial, it supports setting aside
the verdict with respects to the defendant’s convictions.
§3477. Jurisprudence 2d. 34B. N.Y. Newly Discovered Evidence requirement held: new evidence
upon which a motion to vacate a judgment is based must have been discovered since entry of a judgment
based upon a verdict ofguilty after trial and could not have been produced by defendant at trial even with
due diligence on his or her part.
The Sixth Amendment of the Constitution guarantees to each criminal defendant the “assistance of
counsel for his defense”.
In the case at bar, this 440 motion will properly demonstrate how defendant’s Sixth Amendment
of the United States Constitution and defendant ’s Due Process Right to have a fair trial “was certainly
violated” as trialjudge Braslow, and trial court appointed counsel Obedin made certain defendant “was
definitely deprived of his right to have counsel for “defendant’s defense strategy” who would try to
prove defendant’s innocence with the overwhelming evidence counsel and prosecution both possessed

-14-

which proved defendant did not fire his weapon”.
The Supreme Court of the United States, in McCoy v. Louisiana. 138 S.Ct. 1500(2018), petitioner
Robert Leroy McCoy, represented by new counsel, moved for a new trial, arguing that trial counsel violated
his Constitutional Rights by allowing prior counsel to concede that petitioner committed three murders over
his objection during guilt phase of Capital trial. The 26th Judicial District Court, Parish of Bossier, denied
motion and sentenced petitioner to death. Petitioner appealed. The Louisiana Supreme Court, Hughes, J., 218
So. 3d 535 affirmed. Certiorari was Granted. In a “Landmark Decision” by the Supreme Court of the United
States went as followed:
@. McCoy v. Louisiana. Holdings: [1] United States Supreme Court Justice Ginsburg, held that:
defendant had the right under the Sixth Amendment to insist that his prior counsel refrain from admitting
thatpetitioner committed three murder’s during guiltphase ofcapital trial, even though counsel reasonably
believed that admitting guilt afforded petitioner the best chance to avoid death sentence.
@ McCoy v. Louisiana. 1505 Supreme Court justice Ginsburg, held that: Yet the trial Court
permitted counsel, at the guilt phase of a capital trial, to tell the jury the defendant “committed three
murders.... [H]e ’s guilty ”. We hold that defendant has the right to insist that counsel refrainfrom admitting
guilt, even when counsel’s experienced-based view is that confession guilt offers the defendant the best
chance to avoid the death penalty.
“Guaranteeing a defendant the right to have the Assistance of counsel for his defense the Sixth
Amendment so demands ”. With individual liberty-and, in capital cases, life—at stake, “it is the defendant’s
prerogative, not counsel’s to decide on the objective ofhis defense

to admit guilt in hope ofgaining mercy

at the sentencing stage, “or to maintain his innocence”, leaving it to the State to prove his guilt beyond a
reasonable doubt.
@ McCoy v. Louisiana. 1507 Supreme Court justice Ginsburg, held that: Counsel’s admission of
client’s involvement in murder when client adamantly maintained his innocence contravened Sixth

-15-

Amendment right to counsel and due process right to afair trial. The Sixth Amendment guarantees to each
criminal defendant the assistance of counselfor his defense.
In the case at bar, defendant repeatedly informed his Court appointed Counsel Glenn Obedin, that
defendant “did not murder the victim” and defendant continuously instructed trial counsel Glenn Obedin
that defendant “only wanted to fight for an acquittal at trial” and nothing else. Defendant’s trial counsel
was well aware that defendant had pled “Not GuiIty”from the start, nothing ever changed, defendant had
“always maintained his innocence”. Defendant’s trial counsel Glenn Obedin, violated defendant’s Sixth
Amendment of the Constitution and Due Process Right to have a fair trial by failing to refrain from telling
the Court and Jury the defendant committed the murder.
The prosecutor always knew the defendant maintained his innocence. The prosecutor, A.D.A.
Merrifield clearly stated on the record, {His defense through his attorney thus far, has been that he did not
do this crime, please see Trial Transcript page 788}. A.D.A. Merrifield further stated:// would ask they go
in subject to connection and subject to the testimony offurther witnesses in this case, because we believe that
is where the defense all along is, “he didn ’t do it”, please see trial transcript page 789}. Then defendant’s
trial counsel, Glenn Obedin, vociferously violated defendant’s Sixth Amendment ofthe Constitution and Due
Process Right to have a fair trial by vociferously telling the Court & prosecution on the record, {“I
strenuously object to {the prosecutor} Miss Merrifield’s, assertion that the defense thusfar has been that
he didn't do it. I challenge her to go anywhere on the record where I said he didn’t do it. 1 never said that,
never. And I am appalled at that, at that thought, please see trial transcript pages 789 to 790}. A.D.A.
Merrifield further stated on the record, to defendant’s counsel:{ Mr. Obedin, we have had numerous
conferences about this case, that your client is not admitting he committed this crime, please see trial
Transcript page 790}. That was the “first time” defendant heard about his counsel having numerous
conferences with the prosecutor. Defendant’s trial Counsel “never told defendant he had numerous
conferences with the prosecutor” and he was ineffective for keeping defendant in the dark about his

-16-

conferences with the prosecutor making plans to put defendant away some place where I could never be
heard from again.
At this point trial Judge Braslow was well aware that defendant’s trial counsel was “giving everyone
the impression defendant did murder the victim versus defendant maintaining his innocence”.
Defendant’s ineffectual trial counsel also deliberately lied to defendant by saying he did not have discovery
to give me to make sure I couldn’t speak up to expose his plot to make sure the truth never came out. If
defendant had his discovery I could have spoken for myself and that is why my court appointed counsel did
not give me my discovery, so he could use the defense he wanted to use despite me specifically telling trial
counsel Glenn Obedin, that James Jones murdered the victim and tried to murder defendant.
In the case at bar, even though trial counsel believed that telling the Court and jury defendant did
not intentionally murder the victim would afford defendant a better chance to avoid 25 to life and get the
lesser Extreme Emotional Disturbed defense, it was still “without defendant’s permission” and not the
defense strategy defendant repeatedly told his lawyer what he wanted to use. Defendant’s court appointed
counsel was quick to go against “defendant’s defense strategy that defendant did not commit the murder, that
trial counsel deliberately failed to alert the court and jury about the scientific, D.N.A., biological trace, and
forensic evidence “possessed by prosecution and defense” proving defendant did not fire his weapon”.
Defense counsel then violated defendant’s Sixth Amendment of the Constitution and Due Process
Right to have a fair trial by knowingly falsely telling the court and jury {defendant is not guilty of
intentionally murdering Gwen Brodie, Opening Statements, please see Trial Transcript page 629, Obedin}.
Judge Braslow allowed defendant’s trial counsel to violate defendant’s Due Process Right to have a fair trial
when Judge Braslow allowed defendant’s trial counsel to falsely state : defendant did not intentionally
murder the victim “knowing prosecution, the Court, and defense Counsel all possessed copies of the
Scientific Evidence, D.N.A. Evidence and Biological Trace evidence from their Suffolk County Crime
Laboratory clearly establishing with “Scientific Certainty” that defendant did not fire his weapon
-17-

and definitely was not the shooter.
@ 1511, McCoy. The U.S. Supreme Court Justice Ginsburg held “Structural Error” affects the
framework within which the trial proceeds, as distinguishedfrom a lapse or flaw that is “simply an error
in the trial process itself”. An error may be ranked “Structural”, we have explained, “if the right at issue
not designed to protect the defendantfrom erroneous conviction but instead protects some other interest, ”
such as “the fundamental legal principle that a defendant must be allowed to make his own choices about
the proper way to protect his own liberty ”. Under at least the first two rationales, counsel’s admission of
a client’s guilt over the client’s express objection is error “Structural” in kind. The effects of the admission
would be immeasurable, because a jury would almost certainly be swayed by a lawyers concession.
@ McCoy v. Louisiana. Holdings: [3] United States Supreme Court Justice Ginsburg, held that:
Trial court’s error, in allowing prior counsel’s admission ofdefendant’s guilt despite defendant’s insistent
objections to such admissions, was “structural”, and thus, defendant would be accorded a new trial without
any need to show prejudice.
@ McCoy v. Louisiana. 1510 The Supreme Court of the United States Justice Ginsburg held: For
McCoy, that objective was to maintain “I did not kill the members ofmyfamily”. In this stark scenario, we
agree with the majority of the State Courts of last resort that counsel may not admit her client’s guilt of a
charged crime over the client’s intransigent objection to that admission.
In the case at bar, It was trial judge Bralsow’s error by allowing trial counsel Obedin, to falsely tell
the jury at opening statements that ‘.{defendant is not guilty of intentionally murdering Gwen Brodie, please
see Opening Statements, Trial Transcript page 629, Obedin}. When trial judge Braslow, the prosecutor
<'

Merrifield, & trial counsel Obedin all knew and possessed Scientific documents Inter alia from their very
own Crime Laboratory that proved with absolute certainty defendant did not fire his weapon, they knew
defendant was definitely going to fight at trial for an acquittal. Trial Judge Braslow allowed a serious error
by allowing defendant’s trial counsel Glenn Obedin to yell defendant is guilty by saying : {“Istrenuously

-18-

object to {the prosecutor} Miss Merrifield’s assertion that the defense thus far has been that he didn ’t do
it. I challenge her to go anywhere on the record where I said he didn't do it. I never said that, never, And
I am appalled at that, at that thought, trial transcript pages 789 to 790}. That deliberate error from trial
counsel Obedin is “Structural in kind” and can only be corrected with a new trial, as stated by the
Honorable Supreme Court Justice Ginsburg, in Supreme Court of the United States, in McCoy v. Louisiana,
138 S. Ct. 1500 (2018), @ 1512 & Holdings [3].
@ 1515, Even in the dissenting opinion from the Supreme Court of the United States, in McCoy v.
Louisiana. 138 S. Ct. 1500 (2018), United States Supreme Court Justice’s Alito, Thomas, and Gorsuch,
held: ifcounsel is appointed, and unreasonably insist on admitting guilt over the defendant’s objection, “a
capable trial judge” will almost certainly grant a timely request to appoint substitute counsel. And ifsuch
a request is denied, the ruling may be vulnerable on appeal.
In the case at bar, defendant’s lawyer was also appointed, and trial judge Braslow knew trial
counsel Obedin, unreasonably insisted on admitting non-intentional guilt without defendant’s permission,
trial judge Braslow also unjustly refused to grant defendant a substitute counsel even after counsel asked to
be relieved from defendant’s case so defendant could have a fair trial from the start using defendant’s
defense strategy, please see trial transcript pages 788 to 790, 629, & 1008.
After many argument’s with defense counsel, trial counsel told judge Braslow “on the record” :Mr.
Leslie’s defense has been compromised at this point, but his defense in general, please see trial transcript
page 1007.
One the record, defendant’s trial counsel told judge Braslow,: We have a significant rift, obviously,
between us, in terms oftheories. And I think that infairness to him and his ability to have afull andfair trial,
which is of the utmost importance here, this is a very significant charge, obviously, that I think it is only
appropriate at this time, “that your Honor relieve me as counsel and grant a mistrial and allow Mr.
Leslie to have a full and complete defense, based upon his theory, from the outset of the trial”.

-19-

I think that, unfortunately, that is the only remedy appropriate at this point, to ensure afull andfair
trialfor Mr. Leslie., please see trial transcript pages 1007 to 1008.
In the case at bar, going by the standards in the Supreme Court of the United States where
dissenting Justice’s Alito, Thomas, and Gorsuch, held: ifcounsel is appointed, and unreasonably insist on
admitting guilt over the defendant’s objection, “a capable trial judge” will almost certainly grant a timely
request to appoint substitute counsel. It is painfully obvious trial judge must not be a capable trial judge
because he did not care about defendant’s Sixth Amendment’s and his Due Process Rights to have a fair trial
being violated because judge Braslow unjustly refused to give defendant a substitute attorney that would
fight for an acquittal to prove defendant’s innocence, andjudge Braslow had the audacity to tell defendant
to cooperate with defendant’s attorney {trial transcriptpage 1009}, and ignore “thefacts ” that defendant’s
attorney has told the court andjury defendant is guilty {trial transcriptpages 788 to 790, & 629} and would
notfight to prove defendant’s innocence. How can judge Braslow tell defendant he needs to cooperate with
an attorney that falsely told the court and jury the defendant murdered the victim without defendant’s
permission. United States Supreme Court Justice Ginsburg, clearly held that: defendant had the right under
the Sixth Amendment to insist that his prior counsel refrain from admitting that petitioner committed three
murder’s during guilt phase of capital trial, even though counsel reasonably believed that admitting guilt
afforded petitioner the best chance to avoid death sentence.
In the case at bar, Judge Braslow unjustly failed to do what “3 " United States Supreme Court
Justices saida capable trialjudge would do, and that would be to certainly grant a timely request to appoint
substitute counsel ifcounsel is appointed, and unreasonably insist on admitting guilt over the defendant's
objection. Judge Braslow knew defendant had always maintained his innocence and wanted nothing but a
trial tofightfor his acquittal, andjudge Braslow certainly knew trial counsel Obedin kept stating defendant
did murder the victim against defendant wishes, a clear cut violation ofdefendant’s Sixth Amendment Rights
and his Due Process Right to have a fair trial and choose the defense defendant wants to use. Supreme

-20-

Court Justice Ginsburg has ruled in McCoy v. Louisiana. 138 S. Ct. 1500 (2018), @ McCoy v. Louisiana.
Holding [3] such admissions, was “structural”, and thus, defendant would be accorded a new trial without
any need to show prejudice.
@ McCoy v. Louisiana. 1507-1509 The Supreme Court of the United States justice Ginsburg held:
when a client makes it plain that the objective of “his defense ” is to maintain innocence of the charged
criminal acts and pursue an acquittal, his lawyer must abide by that objective and may not override it by
conceding guilt.
In the case at bar, defendant’s trial counsel Obedin, repeatedly ignored that defendant told him
defendant did not murder the victim and he wanted to fight for an acquittal at trial and nothing else.
@ McCoy. 1509 The Supreme Court of the U. S. Justice Ginsburg held: When a client expressly
asserts that the objective of “his defense ” is to maintain innocence ofthe charged criminal acts, his lawyer
must abide by that objective and may not override it by conceding guilt. US. Const. Arndt. 6 (emphasis
added). See Model Rule of Professional Conduct 1.2(a) (2016) {a “lawyer shall abide by a client’s decisions
concerning the objectives of the representation ”). Presented with express statements of clients will to
maintain innocence, however, counsel may not steer the ship the other way. @ McCoy v. Louisiana. 1508,
The Supreme Court of the United States Justice Ginsburg held: The choice is not all or nothing: To gain
assistance, a defendant need not surrender control entirely to counsel. For the Sixth Amendment, in
“Granting to the accusedpersonally the right to make his defense ” speak’s ofthe assistance of counsel, and
an assistant, however expert, is still an assistant. The Sixth Amendment “contemplates a norm in which the
accused, and not the lawyer, “is master of his own defense”. In the case at bar, you have judge Braslow
unjustly telling defendant he needs cooperate with court appointed attorney Obedin, who will not allow
defendant to use the defense of his choice andfight for an acquittal by it self violated defendant’s Sixth
Amendment to the Constitution and his Due Precess right to have afair trial by denying defendant his right
to fightfor an acquittal using the defense strategy defendant chose.
-21-

In People v. Sides. 75 N.Y. 2d 822 (1990), the Court of Appeals held: defendant who requested
substitution ofappointment ofcounsel was deprived ofhis right to counsel where courtfailed to make even
minimal inquiry as to nature of disagreement with present counsel or its potential for resolution prior to
denying motion. For that error Sides was granted a new trial because trial judge failed conduct any inquiry
whatsoever.
In People v. DavielMcCummims, 124 A.D. 3d 502 (2015) the Appellate Division First Department
held: New trial was warranted due to trial court’s improper denial of defendant’s requestfor substitution
of counsel without conducting any inquiry whatsoever}.
In the case at bar, the record clearly demonstrated how trial counsel Obedin asked Judge Braslow
if he could be relieved as counsel of defendant {Trial Transcript pages 1007-1008} for a mistrial and give
defendant a substitute counsel and a chance to have a fair trial using defendant’s defense. The record clearly
demonstrated how judge Braslow unjustly denied the application for a mistrial to receive substitute counsel
“without conducting any inquiry whatsoever ” without giving defendant a chance to explain the nature of
disagreement with present counsel or its potential for resolution prior to denying motion. That act of
misjudgement and abuse of discretion by Judge Braslow certainly warranted defendant a new and fair trial
alone based on case law from the Court of Appeals in People v. Sides, 75 N.Y. 2d 822 (1990), & from the
Appellate Division First Department in People v. Daviel McCumminzs, 124 A.D. 3d 502 (2015). Judge
Braslow and trial counsel Obedin stomped on defendant’s Sixth Amendment of the Constitution and Due
Process Rights to have a fair trial like judge Braslow is exempt from following the law. For the above
mentioned reasons defendant should by all rights be warranted a new and fair trial immediately.
@. McCov v. Louisiana, page 1508 Supreme Court justice Ginsburg, held: Some decisions are
reserved for the client, rather than for the lawyer, notably, “whether to plead guilty”, waive a right to a jury
trial, testily in one’s own behalf, and forgo an appeal. U.S.C.A. Constitution Amendment Sixth.
In the case at bar, trial counsel Glenn Obedin, and trial judge Braslow certainly violated

-22-

defendant’s Sixth Amendment of the Constitution and his Due Process Right to have a fair trial by taking
away defendant’s right to fight for a acquittal at trial by trial judge Braslow allowing court appointed counsel
Glenn Obedin to tell the Court & jury that defendant did murder the victim, which “deliberately stripped
defendant of his Constitutional Rights to choose the defense of his choice”. @ McCoy v. Louisiana.
Holding [3] Supreme Court Justice Ginsburg stated errors like these are “Structural”, and thus, defendant
would be accorded a new trial without any need to show prejudice.
@ McCoy v. Louisiana. 1511, The Supreme Court of the United States Justice Ginsburg held: But
here, the violation ofMcCoy’s protected autonomy right was complete when the court allowed counsel to
usurp control of an issue within McCoy’s sole prerogative. Violation of a defendant’s Sixth Amendmentsecured autonomy ranks as error ofthe kind our decisions have called “structural ”; when present, such an
error is not subject to harmless-error review.
@ McCoy v. Louisiana. 1512, The United States Supreme Court Justice Ginsburg held: Attorney
Larry English was placed in a difficultposition; he had an unruly client andfaced a strong government case.
He reasonably thought the objective of his representation should be avoidance of the death penalty. But
McCoy insistently maintained “I did not murder my family ”. Once he communicated that to court and
counsel, a concession of guilt should have been off the table. The trial Court’s allowance of English’s
admission of McCoy’s guilt despite McCoy’s insistent objections was incompatible with the Sixth
Amendment. Because the error was “structural”, a new trial is the required corrective. For the above stated
reasons McCoy’s Judgment was reversed and McCoy was accorded a new trial.
In the case at bar, defendant’s trial counsel Obedin reasonably thought the objective of his
representation should be to avoid a 25 to life sentence by telling the Court and jury defendant did not
intentionally murder the victim and should receive a lesser sentence under the Extreme Emotional
Disturbance defense. But defendant Ezra Leslie vehemently maintained “he did not murder the victim and
requested to fight at trial for an acquittal ”. The prosecution, A.D.A. Merrifield, the CourtJudge Braslow,

-23-

and defense counsel, Glenn Obedin, all knew defendant stated he did not commit the crime {Trial Transcript
pages 788 to 790}. Defendant made it clear to the court and defense that he did not murder the victim and
wanted to fight for an acquittal, after that a concession ofguilt should have been off the table. The trial
Court’s allowance of Glenn Obedin’s admission of defendant Ezra Leslie’s guilt despite defendant
repeatedly telling trial counsel that he did not murder the victim was incompatible with the Sixth
Amendment because the error was “structural”, as United States Supreme Court Justice Ginsburg stated
@ 1512, “a new trial is the required corrective For these above stated reasons defendant Ezra Leslie’s
Judgment of conviction should properly be reversed and defendant accorded a new trial just as United
States Supreme Court Justice Ginsburg ruled in McCoy v. Louisiana. 138 S. Ct. 1500 (2018) because the
“Error was Structural In Kind” denying defendant his right to chose the defense of his choice while trial
counsel told the Court and jury defendant committed the crime without defendant’s permission, inter alia.
Had this Newly Discovered Evidence, from the “Landmark Decision” in McCov v. Louisiana. 13 8
S. Ct. 1500 (2018), by the Supreme Court of the United States been available in “2003", defendant would
have been granted a new and fair trial on the law based on trial Judge Bralow’s unjust allowance of court
appointed counsel’s unreasonably insist on admitting guilt over the defendant maintaining his innocence
and request to fight at trial for an acquittal. Trial Judge Braslow allowing trial counsel Obedin to ignore
defendant’s request to maintain his innocence and fight for an acquittal absolutely violated defendant’s Sixth
Amendment of the United States Constitution and Due Process Right to have a fair trial, this error was
“Structural in Kind” and could only be corrected with a new trial, “Guaranteeing a defendant the right
to have the Assistance ofcounselfor his defense the Sixth Amendment so demands ”. {The Honorable Supreme
Court of the U.S. Justice Ginsburg,} in McCov v. Louisiana. 138 S. Ct. 1500 (2018). Trial court judge
Braslow, & trial counsel Obedin failed to protect defendant’s Sixth Amendment Right of the United States
Constitution and Due Process Right to have a fair trial, by unjustly denying defendant his constitutional right
to have the assistance of counsel for his defense, and his request for substitution of counsel, for these types

-24-

of errors alone, United States Supreme Court Justice {Ginsburg} in a “Land mark Decision” clearly stated
in McCoy v. Louisiana. 138 S. Ct. 1500 (2018) “a new trial is the required corrective”.
Based on the “Landmark Decision” in McCoy v. Louisiana. 138 S. Ct. 1500 (2018) where United
States Supreme Court Justice {Ginsburg} held: “a new trial is the required corrective” when court
appointed counsel’s unreasonably insist on admitting guilt over the defendant maintaining his innocence
and request to fight at trial for an acquittal. The prosecutor, judge Braslow, and defendant’s court appointed
counsel all knew defendant maintained his innocence and wanted to fight for an acquittal, and judge Braslow
still allowed defendant’s counsel to go against defendant and falsely admit his guilt. For this “Structural
Error” alone defendant Ezra Leslie should be granted a new and fair trial immediately.
ARGUMENT II.
POINT TWO: DEFENDANT WAS DENIED HIS DUE PROCESS RIGHTS TO A FAIR TRIAL AS
ENUMERATED UNDER THE 6th & 14,h AMENDMENTS TO THE UNITED STATES
CONSTITUTION AND ARTICLE 1 § 6 OF THE NEW YORK STATE CONSTITUTION.,WHERE
“PERVASIVE PROSECUTORIAL MISCONDUCT” REQUIRED REVERSAL OF DEFENDANT’S
CONVICTION AND RETRIAL.
B. General Application
Defendant argues this motion under the authority of Criminal Procedure Law § 440.10(1 )(C) (G)(H)
to vacate the judgement of conviction entered against him on June 12th 2003. Defendant was denied his Due
Process Rights to have a fair trial as enumerated under the 6th & 14"1 Amendment to the United States
Constitution and Article 1§ 6 of the New York State Constitution, “Where Pervasive Prosecutorial
Misconduct required reversal of defendant’s conviction and retrial”.
Under § 18:241, New York Secondary Sources held: Only with Pervasive misconduct will an un­
preserved issue result in reversal.
In People v. Redd. 141 A.D. 3d 546 (2016), Appellate Division Second Department, defendant was
convicted in the Supreme Court, Queens County, Lewis, J. of Second degree murder, second degree abortion,
and fourth degree criminal possession of a weapon, and he appealed.

-25-

The Supreme Court Appellate Division Second Department held: that “pervasive prosecutorial
misconduct required reversal” of defendant’s convictions and retrial.
@ People v. Redd, page 548: The Appellate Division, Second Department stated; However, the
judgment of conviction must be reversed and a new trial ordered as a result of “pervasive prosecutorial
misconduct”. During opening statements as well on summation, the prosecutor repeatedly engaged in
improver conduct, including misstating the evidence, vouching for the credibility of witnesses with regard
to significant aspects ofthe People’s case callingfor speculation by thejury, seeking to inflame thejury and
arouse it’s sympathy, and improperly denigrating the defense.
@ People v. Redd, page 549: The Appellate Division Second Department stated; During the
summation, the prosecutor flatly misstated the medical examiner’s testimony regarding the estimated time
of death, quoting her as saying “I found nothing in my autopsy that would be inconsistent with the time of
death of six A.M” and asking, rhetorically, “Can we get more clear than this ladies and gentlemen?” In fact,
the medical examiner’s testimony was, “I found nothing in my autopsy that would be consistent with the
time of death of six a.m. the previous day.” While defense counsel objected to the prosecutor’s misstatement,
the trial court’s only response was to say “[t]hat is the jury’s determination.”
Echoing the earlier remark from his opening statement, the prosecutor again sought to explain, on
summation, the small cuts on the defendant’s hands by saying that “during this repeated stabbing, you may
get yourself a little cut there a little cut there and a little cut there,” particularly “[i]f the blade stabs
something hard, like a baby.” Not only was the remark needlessly inflammatory, it also improperly cast the
prosecutor as an unsworn expert witness in his own case. Defense counsel objected, and the trial court asked
the prosecutor not to testify.
Also during summation, the prosecutor improperly vouched for prosecutions witness Gerves’s
credibility, describing her as a “sharp-eared woman,” and speculating that her sense of hearing was
particularly well developed from “listening to her [asthmatic] son breath[e] from a distance since four

-26-

months old.” Defense counsel objected, but the trial court did not rule on the objection.
@ People v. Redd, page 550, The Second Department further stated: The Prosecutor was also
allowed, during summation, to read stricken hearsay testimony from Gerve about a conversation she
reportedly had with a friend about calling Crime Stoppers. Defense counsel, who did not have a transcript
of Gerve’s testimony during the prosecutor’s summation, brought the matter to the trial court’s attention at
the earliest opportunity the following day, while the jury was still deliberating.
The Appellate Division, Second Department held: Although objections to some ofthe remarks below
were sustained, we nevertheless include them in order to provide a more complete picture of the
pervasiveness of the misconduct at issue on this appeal.
As stated in People v. Redd, @ 548, the judgment of conviction must be reversed and a new trial
ordered as a result of “pervasive prosecutorial misconduct” because during opening statements as well on
summation, the prosecutor repeatedly engaged in improper conduct, including “misstating the evidence”,
“vouching for the credibility of witnesses”.
In People vJones. 134 A.D. 3d 1588, 22 N.Y. 3d 755(Dec., 31st ,2015 ), defendant was convicted
after jury trial in the Supreme Court, Monroe County, Robert B. Wiggins, A. J., of attempted rape in the first
degree, attempted criminal sexual act in the first degree, and assault in the second degree, and he appealed.
The Appellate Division held: that reversal is required based on “Pervasive Prosecutorial Misconduct, on
summation”.
@ People v.Jones. page 1588, the Appellate Division stated, On summation, the prosecutor
repeatedly invoked a ‘‘Safe Streets ” argument even after the Supreme Court sustained defense counsel’s
objection to the prosecutor’s use of that argument, denigrated the defense by calling defense counsel’s
arguments “garbage ”, “smoke and mirrors ”, and “nonsense ” intended to distract the juror's focus from
the “atrocious acts ’’ that defendant committed against the victim.
@ People v.Jones. pase 1589, the Appellate Division also stated Perhaps most egregiously, given

-27-

that “the potential danger posed to defendant when DNA evidence is presented as dispositive ofguilt is by
now obvious , ” the prosecutor engaged in misconduct when she mis-characterized and overstated the
probative value of the DNA evidence in this case.
@ People v. Jones, vases 1588 to 1589, the Appellate Division stated although defendant failed to
preserve his contention for our review with respect to all but one alleged instance of Pervasive Prosecutorial
Misconduct we exercise our power to review defendant’s contention with respect to the remaining instances
as a matter of discretion in the interest of justice., (see CPL 470.05[2]).
@. People v.Jones. 1588. Defendant contends that reversal is required based on pervasive
prosecutorial misconduct, the Appellate Division stated, We agree.
For the above mentioned pervasive prosecutorial misconduct the Appellate Division Fourth
Department ordered that the judgment so appealed from is unanimously reversed on the law and as a matter
of discretion in the interest of justice and a new trial is granted.
In the case at bar, the prosecutor, {A.D.A. Merrifield} was so petrified she would lose that she
deliberately made misleading and false statements to the jury and in summations, including vouching for a
star witnesses credibility which is outside her duties as a assistant district attorney, for instance please see:
The definition of “Center of mass is located on a persons upper torso in the chest area” no
lower than the stomach where {A.D.A. Merrifield} was trying to make the connection that only Police
officers are taught to fire their weapon at center mass, as (A.D.A. Merrifield} acted as an “unsworn
witness”. The case at bar had several discovery diagrams showing where the victim was shot and “none
of them displayed all {5} of the bullets hitting the victim center mass”.
In the case at bar, the prosecutions pervasive prosecutorial misconduct attempt to hide the truth
that this shooting “was personal” by the live-in boyfriend “James Jones” who just found out during the
argument between the victim and defendant, that the victim had a ongoing sexual relationship with the
defendant for over 10 years. (A.D.A. Merrifield} blatantly lied to the court and jury about where the victim

-28-

was actually shot, by falsely stating during summations all the shots were center mass knowing three of the
five shots were intended for the victims vagina. Discovering the victim and defendant had always been
sexually involved prompted James Jones {the true murderer} to shoot the victim five times, and try and
shoot the defendant. Three of the shots were near the victims vagina because it was “Very Personal” and
prosecution {A.D.A. Merrifield} knew this, but the prosecutor “deliberately lied in her closing summation”
about the victim being shot center mass with all the bullet’s please see {ExhibitNo. 13, Trial Transcript page
Closing Summation 1308, lines 6 to 10} to deceive the jury to believe a police officer {the defendant} shot
the victim since police officers are taught to fire their weapons at center mass.
In the case at bar, during “closing summations” the prosecutor {A.D.A. Merrifield} deliberately
committed “pervasive prosecutorial misconduct” by engaging in improper conduct, including misstating
the evidence, by falsely stating to the Court and Jury: “ This is center mass right at this women. You have
the Medical Examiner’s diagram just so you can see exactly where all these bullets landed, Center
mass”, please see {ExhibitNo. 13, Trial Transcript Closing Summation page 1308, lines 6 to 10}.
In the case at bar, the evidence clearly shows how “James Jones, the true murderer”, tried to “shoot
the victim in her “vagina” not center mass” as the prosecutor lied in her closing summations, {Exhibit
No. 13,Trial Transcript Closing Summation page 1308, lines 6 to 10}. The true diagram {A.D.A. Merrifield}
possessed clearly displayed that the victim’s vagina was the intended target, please see {Exhibit No.l, the
diagram of the victims pants showing how 3 of the five shots were intendedfor the vagina with two bullet
holes in the zipper, and one bullet hole in the left leg under the pocket.}. Also see {Exhibit No. 2, where the
“Peoples ” forensic crime laboratory clearly determined and stated (2) holes on the front zipper area, and
(1) hole on the left leg below the pocket}.
In the case at bar, the proof is inarguable that prosecutor {A.D.A. Merrifield } committed
“pervasive prosecutorial misconduct” by brazenly lying to the court and jury by telling them “all the
bullets hit the victim center of mass” to deceive them to believe the defendant was the shooter since police
-29-

officer’s are taught to shoot center mass. This pervasive prosecutorial misconduct issue alone by {A.D.A.
Merrifield} “warrant’s a reversal of defendant’s conviction and retrial”.
In the case at bar, {A.D.A. Merrifield} deliberately failed to inform the court and jury that
prosecution’s star witness, {the true murderer} James Jones, falsely testified at the Grand jury about “two
different positions” defendant allegedly shot the victim from when each position James Jones testified the
defendant shot the victim from was scientifically impossible based on the testimony by the Peoples distance
expert’s Mr. Hopkins testimony.
James Jones first testimony about where the weapon was positioned for the shooting stated:
defendant was “Right on Top ofthe victimfor thefinal three shots ’’please see {Exhibit No. 10, Grand Jury
page 38, line 19}. Now, please see {Exhibit 3, the “People’s ” crime laboratory’s test results of the sweat
pants, socks and sneakers defendant was wearing} displaying no evidence of blood splatter on defendant’s
sweat pants legs, socks and sneakers “undeniably proving” James Jones lied about the defendant being
right on top of the victim for the final three shots. Had the shooter been standing right on top of the victim
for thefinal three shots “there would have certainly been blood spatter on defendant’s sweat pants legs,
socks and sneakers” and there was none. That was the reason why the Suffolk County Police had
defendant’s clothes tested, to confirm if James Jones story about defendant being right on top of the victim
for the final three shots was true, which the forensic testing turned out proving James Jones lied again. Also
if the victim was shot by the defendant standing right on top of her there would have certainly been “Gun
Powder Residue” on the bullet entry holes being that the weapon would be closer than the four feet required
distance to create gun powder residue on the bullet entry holes. The distance to create gun powder residue
was determined to scientific certainty by the “Peoples Distance Expert”, { Exhibit No. 14, Mr. Hopkins,
trial transcript pages 933 to 934, Jones}.
Prosecutor {A.D.A. Merrifield} asked distance expert {Mr. Hopkins,} “Do you have an opinion, sir,
as to a “scientific certainty”, as to the distance at which these particular articles of clothing {clothes victim

-30-

was wearing} were fired on? Distance expert {Mr. Hopkins} testified to a “scientific certainty”: this is
about four feet right here, so the gun was no closer than this, in my opinion, when it was fired into the
clothing”, please see {ExhibitNo. 14, Trial Transcript pages 933 to 934}, the distance expert {Mr. Hopkins}
testified to scientific certainty that the victim was shot from no closer than four feet. Any shot from four feet
and more would not create gun powder residue on the bullet hole entries. The distant expert {Mr. Hopkins}
testified there was no gun powder residue on the bullet holes because the “gun was not closer than four feet
when the victim was shot”. If defendant done what Jones said, there would have been gun powder residue.
In the case at bar, this Court, {Judge Braslow}, prosecution, {A.D.A. Merrifield}, and defendant’s
deliberately ineffective defense counsel {Glenn Obedin}, has seen testimony from the true murderer {James
Jones}, brazenly lying that defendant was right on top of the victim for the final three shots {Exhibit No. 10,
Grand Jury page 38}, and we all know “from distant expert Mr. Hopkins, testimony” if defendant stood
right on top of the victim the distance would have certainly been less than the required four feet to produce
gun powder residue and there “would have definitely been gun powder residue on the bullet holes where
the victim was shot”, but there was no gun powder residue on the bullet hole entries proving the shooter
was not standing right on top of the victim, but at least four feet or more.
James Jones second testimony about where the weapon was positioned for the shooting stated:
Jones testified at defendant’s Grand Jury by falsely stating: Ezra {the defendant} was rushing towards us
down the hallway, he shot another shot as he was coming down the hallway and then while she was laying
on thefloor, “he reached into the room that she fell and fired three more, see {ExhibitNo. 9, Grand Jury
page 37, lines 16 to 21, Jones}. The first and second story James Jones testified about how the weapon was
positioned when the victim was shot does not corroborate to the testimony from {Distance Expert} Mr.
Hopkins testimony that the weapon was “No Closer than Four feet” when the victim was shot. Both stories
by James Jones, (1) standing right on top of her, and (2) leaned into the room that she fell into and fired
three shots, all “placed the weapon closer than the required four feet” to create gun powder residue on

-31-

the entry to the bullet holes. The victim’s body was positioned with her upper body from the neck down to
her waist “directly in the doorway” with her legs in the hallway. True murderer James Jones testimony
even confirmed the victim’s body was positioned directly in the doorway of the computer room with her
legs in the hallway, please see {Trial Transcript page 1049, lines 12 to 16, Jones Cross}. If the shooter
reached into the doorway to shoot the victim, again that would place the weapon closer than the four feet
required to create gun powder residue on the entry of the bullet holes because the victims upper body was
“positioned directly” in the doorway of the computer room with her legs in the hallway. The scientific test
results prove “with scientific certainty” the weapon was no closer than four feet from the victim’s body
when it was fired. Testimony from James Jones “two versions” of how the victim was shot definitely had
the weapon closer than four feet and there should have been gun powder residue on the bullet hole entries
if James Jones told the truth, but there was no gun powder residue on the victims clothes because James
Jones lied about how the victim was shot for the sole purpose to place the blame on the defendant.
James Jones also falsely testified {the defendant} after firing once from down the hallway,
defendant then rushed towards us down the hallway, he fired another shot as he was coming down the
hallway, see {Exhibit No. 9, Grand Jury page 37, Jones}.
Pursuant to Scientific Evidence 5th Edition: § 14.13, Gunshot Residue test held: When a firearm
is discharged, a “back blast of gases” escapes and gunshot residue will be deposited on the hand of the
person firing the weapon or any other person or surface in the vicinity. Also propellent (smokeless powder)
and “primer residues are discharged”. A number of techniques are designed to detect gunshot residues.
In People v. Rozier. 143 A.D. 3d 1258, 2016), the Supreme Court Appellate Division Fourth
Department held: Prosecutor’sflagrant distortion ofDNA evidence on summation violated defendant’s due
process rights. @ 1260, We nonetheless agree with defendant’s contention that he was denied a fair trial
owing to prosecutorial misconduct. Although defendant failed to preserve that contention for our review,
we exercise our power to review it as a matter of discretion in the interest ofjustice(see CPL 470.15[6][a]).

-32-

At trial, the People presented testimony ofaforensic expert to discuss DNA evidence collectedfrom the gun,
but the testimony was not conclusive. The expert testified that she analyzed the DNA mixture and determined
that the defendant was among 1 in 15 Americans who could not be excluded as a contributor. Nevertheless,
on summation, the prosecutor grossly exaggerated the DNA evidence as “overwhelming "proofestablishing
defendant’s “guilt beyond all doubt "and posited; “if the defendant had not possessed the gun, wouldn ’t
science have excluded him? ” In our view, the prosecutor’s flagrant distortion of the DNA evidence caused
defendant such substantial prejudice that he was denied due process of law, as Prosecutor’s statement, on
summation in prosecution for criminal possession of a weapon, Reversed.
In the case at bar, the Suffolk County Police Department Division of Medical Legal Investigations
&.Forensic Sciences Crime Laboratory did in fact test defendant and his clothes for Biological Trace and
Forensic Science Evidence especially after James Jones falsely stated defendant fired a shot as he was
running down the hallway. Had defendant “walked or ran while firing his weapon he would have
definitely walked directly into “Trace Particles, Primer Residues” that were definitely ejected from
his weapon and those trace particles, primer particles, forensic particles and backblast of gases would
have certainly been detected on defendant and his clothes”. The forensic & biological trace test results
from the Suffolk County Crime Laboratory “did not detect any trace evidence or any other evidence to
prove defendant fired his weapon, because defendant did not fire his weapon”. The Suffolk County
Forensic Science Crime Laboratory’s extensive testing of defendant and his clothes clearly found no
evidence of defendant firing his weapon. After defendant told trial judge Braslow at his sentencing that he
allowed the prosecutor to suborn perjury to convict me, trial judge Braslow deliberately misstated the
evidence by “falsely” telling defendant: for you to stand here in this courtroom, to protest vour innocence
when all of the forensic and scientific evidence in this case pointed to your varticivation and your euilt in
this crime is outrageous, see {Exhibit #7, Sentencing page 13, Braslow, being untruthful}. All the Scientific,
D.N.A. and forensic evidence in this case performed by the Peoples Crime Laboratory clearly

-33-

established with “scientific certainty” that there was no evidence detected on defendant or his clothes
to prove defendant fired his weapon, Judge Braslow’s statement was “Very prejudice and untrue”.
In Judge Braslow’s unjust denial of defendant August 2017, Actual Innocence 440 Motion, Braslow
again deliberately falsely stated: After hearing all the evidence in this case the Court was left no doubt that
the defendant was indeed guilty of the brutal murder of a fellow officer: Judge Braslow, prosecution,
{A.D.A. Merrifield}, and intentionally ineffective defense Counsel {Obedin}, “all deliberately failed”
to “Show all the scientific evidence” they possessed to the jury. The record will certainly confirm how
the prosecution and defense intentionally failed to mention the scientific evidence from their Crime
Laboratory that proved defendant did not fire his weapon. Had they shown all of the scientific
evidence they possessed, every one would have known from the “Peoples Crime Laboratory that
defendant was not the shooter”. The People’s Crime Laboratory clearly established with absolute
certainty that there was no evidence to prove defendant fired his weapon. Had the Suffolk County
Police followed proper police protocol and tested James Jones, {the true murderer} for evidence of him
firing the weapon as they tested defendant, they would have had their true murderer, “James Jones
in 2001”. The scientific tests ran on defendant and his clothes determined that defendant did not fire
his weapon warranting defendant a new trial, based on “Pervasive Prosecutorial Misconduct”.
In the case at bar, during “the Direct Examination of star Witness Tanya Brodie” the prosecutor
{A.D.A. Merrifield} deliberately committed “pervasive prosecutorial misconduct” by covering-up a
serious inconsistencies in the trial testimony from Tanya’s Grand Jury testimony. Tanya Brodie, is the
victim’s sister and the ex- girlfriend of defendant. At Defendant’s 2001 Grand Jury: The prosecutor asked
Tanya after she found out what happened, did she talk to defendant (Ezra} on the phone. Prosecutor: Okay.
You talked to Ezra again on the phone? Tanya Brodie: Yes. leaded his cell phone “and he picked up the
cell phone” andlsaid, what have you done? What didyou do? And, um, he said I can’t talk right now, and
he hung up”, see {Exhibit No. 15, Grand Jury page 25, lines 18 to 24, Tanya Brodie}.

-34-

At 2003 Trial, A.D.A. Merrifield: After that, did you attempt to speak to the defendant? Tanya
Brodie: I called his cell phone to ask what happened and- A.D.A. Merrifield: Did somebody pick up?
Tanya Brodie: Some body picked up and said I can’t talk right now and hung up. A.D.A. Merrifield: As
you sit hear right now, do you know who you spoke to? Tanya Brodie: “No”, Please see {Exhibit No. 17,
Trial Transcript page 1109, Tanya Brodie}.
A.D. A. Merrifield knew when Tanya Brodie was asked if she spoke with defendant after the murder
at defendant’s 2001 Grand Jury Tanya Brodie testified : Yes. Icalled his cell phone “and he picked up the
cell phone” andlsaid, what have you done? What didyou do? And, um, he said I can’t talk right now,and
he hung up”, please see (Exhibit No. 15, Grand Jury page 25, lines 18 to 24, Tanya Brodie}.
A.D.A. Merrifield also knew at defendant’s 2003 trial, A.D.A. Merrifield, asked Tanya Brodie the
same question, did she speak with the defendant after the murder? Tanya Brodie, then answered: After that,
didyou attempt to speak to the defendant? Tanya Brodie: Icalled his cellphone to ask what happened andA.D.A. Merrifield: Did somebody pick up? Tanya Brodie: Some body picked up and said I can’t talk right
now and hung up. A.D.A. Merrifield: As you sit hear right now, do you know who you spoke to? Tanya
Brodie: “No”, Please see {Exhibit No. 17, Trial Transcript page 1109, Tanya Brodie}.
In a brazen act of “Pervasive Prosecutorial Misconduct” A.D.A. Merrifield deliberately failed to
inform the Court and Jury Tanya Brodie gave inconsistent testimony to that question at defendant’s 2001,
grand jury. At defendant’s Grand Jury Tanya allegedly knew who she spoke with, at trial Tanya didn’t
know who she spoke with”. A.D.A. Merrifield failed to ask Tanya Brodie why did she testify in 2001 at
the grand jury that “She spoke directly to defendant after the murder” and he hung up on her”, versus
her 2003 trial testimony stating she did not know who she spoke to. A.D.A. Merrifield failed to tell Tanya
Brodie that prosecution and defense have copies of Tanya Brodie’s telephone records that clearly prove
Tanya’s home phone, 212-368-8698, {Exhibit No. 16,2 pages} called defendant’s cell phone,@ 516-7210143, four (4) times from “9:51 P.M. to 10:07 P.M.” undeniably proving Tanya Brodie did not speak

-35-

to defendant after the victim was shot because defendant was in police custody since “7:34 P.M.” with
no contact with his phone or any phone.
Despite knowing this A.D.A. Merrifield in a brazen act of “Pervasive Prosecutorial Misconduct”
still tried to get Tanya Brodie to lie again about speaking with the defendant after the murder to make
defendant appear more guilty, “knowing Tanya did not speak with defendant after the murder”.
Defendant’s trial counsel, {Obedin} who Judge Braslow would not allow defendant to replace knew phone
records had proven Tanya Brodie, lied about speaking with the defendant after the murder and his intentional
ineffective representation of defendant did absolutely “nothing”.Defendant’s counsel did not try to show
the jury the phone records.
In another brazen act of “Pervasive Prosecutorial Misconduct” during “Closing Summations”,
A.D.A. Merrifield “knowingly lied to the jury that the first two officers on the scene had to face
defendant and his brother {now retired Det. Patrick Leslie} with no cover by falsely stating: Imagine
how that officerfelt responding to a call of an officer down, shot by another police officer. He has to stand
there with no cover and try to stop these two individuals that he ultimately sees possessing a gun, fumbling
with the gun and had the audacity to say “ultimately police officer Bardak convinces them to drop the
gun”, Please see {Exhibit No. 19, Trial transcript page 1327, Closing Summation,}.
A.D.A. Merrifield told that bold untruth about the defendant and his brother fleeing with the gun
having discovery in her possession indisputably proving her Closing statement is untrue. A.D.A. Merrifield
had a copy of the Homicide, Det. Stephan’s #675, 11/21/01 Continuation Report that clearly stated '.Leslie
went back to his front yard and gave it to his brother, Det. Patrick Leslie,#! 170. Shortly there after, the
police arrived, Stephan’s continuation report clearly proved defendant and his brother Patrick were
in front of defendant’s house before officer Bardak and his partner Walsh arrived, the weapon was
on the steps before they arrived, and they saw “Nobody” fleeing anywhere, nor did they see anyone
handling the weapon. Homicide Det. Stephan received this information from Officer Bardak before

-36-

Bardak decided to change his story, and prosecution knew this and did nothing but use Bardak’s lie.
A.D.A. Merrifield had more discovery proving defendant and his brother were not fleeing nor seen
handing the weapon, she also had a :Suffolk County Police Dept. Communications Section Form , that
had “Recorded 911 Tapes” from the victims and defendant houses again proving defendant and his
brother were not fleeing or were seen holding the weapon.
A.D.A. Merrifield had more discovery proving defendant and his brother were not fleeing nor seen
handling the weapon, she also had a: “Cad Completed Call Form”, a computer print out of the precise time
patrol cars arrived and instructions from the 911 dispatcher to patrol car, this form also clearly stated the 911
dispatcher told all at “7:27 p.m.” defendant was in front of his house, and the dispatcher told all officer’s
Bardak and his partner Walsh, arrived in car# 306 at “7:31p.m.” 4 minutes after everyone knew
defendant was in front of his house.
A.D.A. Merrifield had more discovery proving defendant and his brother were not fleeing nor seen
handling the weapon, A.D.A. Merrifield, had knew that the allegations from officer Bardak & his partner
Walsh about defendant and his brother doing police misconduct by fleeing from them refusing to drop a
weapon Inter alia, was not true, because : The Suffolk County Police Dept. Internal Affairs Bureau had
completed an extensive investigation into all those allegations and I.A.B. determined “all the police
misconduct allegations was “unfounded”, there was no proof the lies from Bardak & Walsh ever
occurred, see {Exhibit No. 18, a copy of the I.A.B. complaint, determining accusations of misconduct
were Unfounded }. A.D.A. Merrifield, judge Braslow, and defendant’s counsel Obedin who Braslow
would not allow defendant to replace all knew this and much more, and they did nothing but believe
lying officers who slandered defendant and his brother because we were African American Detectives.
Judge Braslow stated on the record that officers Bardak and his partners saw my brother and I fleeing, and
despite “911 tapes, the homicide detective’s report, and more proving Bardak and Walsh lied” about
the actions and location of defendant and his brother upon their arrival at the scene, Judge Braslow still

-37-

believed them. This is how Assistant District Attorney’s really operate under the watchful eyes of former
indicted for Corruption Suffolk County District Attorney Thomas Spota to wrongfully convict defendant as
Judge Braslow and Merrifield joined in, the sad truth, there is still corrupt assistant district attorney’s who
worked with Corrupt Thomas Spota doing the same thing now with the new Suffolk County District Attorney
with nothing being done.
Based on prosecutions flagrant distortion of DNA evidence and deliberate blind eye to evidence
irrefutably proving Suffolk Police Officers {Bardak & Walsh} were untruthful defendant should by all rights
be granted a new and fair trial on the above evidence by it’s self.
In the case at bar, the proof is inarguable that prosecutor {A.D.A. Merrifield}

committed

“pervasive prosecutorial misconduct” by brazenly covering up the fact’s that child witness Olivia did not
see what truly transpired. Prosecutor, {A.D.A. Merrifield} knew eight year old Olivia Brodie’s testimony was
compromised when the Suffolk County Police violated proper police protocol by not separating witnesses
James Jones & Olivia Brodie, and allowed James Jones {the true murderer} to tell his version of what
allegedly transpired with the victim’s then eight year old daughter Olivia sitting right next to him on the front
steps to the victims house. Proof James Jones told his untrue version with Olivia next to him was on the
record when James Jones testified at defendant’s trial. At trial the prosecutor asked James Jones did he tell
a officer at the scene what happen,: PROSECUTOR: Now I want to ask you next, when you were in the
house, now did there come a time that you spoke with police officer’s and told them what had happened?
JAMES JONES: Yes. PROSECUTOR: When did youfirst tell them what happened? JAMES JONES: After
they took Gwen out, I went out. I went outside when the police was assisting Gwen. I came back into the
house. The police officers wouldn ’t let me go back down the hallway, “So I grabbed Olivia and we sat on
the front stoop”. And that was the first time that I talked to the cops about what happened.
PROSECUTOR: Now have you ever told Olivia what had happened? JAMES JONES: No.
please see {Exhibit 4, trial transcript pages 997, lines 8 - 25, to 998 line 1, Jones}. Prosecutor {A.D.A.

-38-

Merrifield} committed “pervasive prosecutorial misconduct” when she asked James Jones, have you
ever told Olivia what happened when the prosecutor “knew James Jones just told prosecution he had
Olivia sitting right next to him on the front steps of the victims house when he told the police officer
his version of what happened while Olivia was sitting right next to Jones, Olivia, “certainly heard
James Jones, she was sitting right next to him” {see Exhibit 4, Trial transcript page 997 to 998, Jones}.
While prosecution was questioning Olivia, A.D.A. Merrifield asked Olivia, what happened just
before her mother was shot, and Olivia, testified, “I saw Ezra coming down the hallway. PROSECUTION:
Where were you when you saw him? OLIVIA: In the um- front door of my room. PROSECUTION: And
what did you do when you saw him there? Olivia: “I went behind my dresser because I didn’t really know
who it was. Then trial Judge Braslow allowed prosecution to deliberately steer witness Olivia by telling the
jury and Olivia when she first saw him she didn’t know him. Then again, PROSECUTION: When you saw
the man in the hallway, where did you go to? OLIVIA: Again Olivia, testified behind my dresser, next to my
closet. PROSECUTION: Why you do that? OLIVIA” Again, Olivia testified because I was scared and I
didn’t know who it was. Please see {Exhibits 5 & 6, trial transcript pages 1138-1139,0. Brodie}. The truth
and fact’s are, Olivia never knew who was in the hallway because she stayed hidden in her room and heard
James Jones false story of what transpired when Olivia was sitting next to Jones on the front steps to the
victim’s house, see {Exhibit 4, trial transcript page 997 to 998, Jones}. Then prosecution was allowed to ask
leading questions as the prosecutor steered Olivia to say yes to prosecution saying at first you didn’t know
who it was. {A.D.A. Merrifield} knew Suffolk County Police officer’s took notes of what Olivia allegedly
saw that night, and the notes clearly stated that Olivia had told the investigating officer’s she saw the
defendant from down the hallway and knew it was the defendant versus her “inconsistent trial testimony”
stating she hid behind her dresser because she did not know who was in the hallway. “It certainly can’t be
both versions”.
During Cross examination defendant’s counsel asked Olivia: DEFENSE COUNSEL, OBEDIN:

-39-

Now after this happened that night, you said that James, your step dad, talked to the police at the house?
OLIVIA: Yes. DEFENSE COUNSEL OBEDIN: And he told them what happened? OLIVIA: Yes.
DEFENSE COUNSEL OBEDIN: And you heard him telling them what happened? OLIVIA: Y es. DEFEN SE
COUNSEL OBEDIN: And you talked to the police some time after that, right? OLIVIA: Yes., please {Trial
Transcript page 1153, O. Brodie}.
Prosecutor {A.D.A. Merrifield} committed “pervasive prosecutorial misconduct” when she then
Redirected and ask ed Olivia: PROSECUTION: Olivia, did James ever tell you what to say to police?
OLIVIA: No. PROSECUTION: Did you ever talk to James about what happened that night? OLIVIA: No.
PROSECUTION: Has he ever talked to you about what happened? OLIVIA: No.
Prosecution, defense and the Court, all knew “by Suffolk County police officer’s failing to separate
witnesses Olivia and James, and allowing Olivia to sit right next to James Jones while he told his side of the
story “everyone knows Olivia did in fact hear all of James Jones lie’s by just sitting next to Jones while he
told his story to the police officer, and the prosecution is trying to hide the fact that Olivia, heard James
Jones false story about what transpired and all the inconsistencies in Olivia’s testimony from the notes
officers took from Olivia on the night of the shooting is obvious proof Olivia did not see what truly
transpired. The notes taken from Olivia, at the scene in 2001, was inconsistent to her testimony at trial and
nothing was done about it but prosecution trying to hide the truth.
Based on all the above documented “pervasive prosecutorial misconduct” where defendant’s due
process rights to have a fair trial were violated by {A.D.A. Merrifield}, defendant by all rights should be
granted a new and fair trial.
In People v. Powell. 165 A.D. 3d 842, 84 N.Y.S. 3d 563, Appellate Div. 2nd. Dept. October 10th,
2018, defendant was convicted in the Supreme Court, Kings County, Neil Jon Firetog, J. of murder in the
second degree and criminal possession of a weapon in the second degree. Defendant appealed.
The Supreme Court Appellate Division Second Department held:prosecutor’s statement’s made

-40-

during summation that misrepresented scientific import of DNA evidence constituted prosecutorial
misconduct, which deprived defendant ofhis right to afair trial. @ 565, However, reversal ofthejudgment
is required due to prosecutorial misconduct on summation: we reach them as a matter of discretion in the
interest ofjustice (see CPL 470.15[6][a]). Moreover, reversal is required because the defendant was
deprived of the effective assistance of counsel. We further find that the defendant was deprived of the
ineffective assistance of counsel, inter alia, due to defense counsel’s failure to object to the prosecutor's
improper comments in summation. Reversed and remitted.
In People v. Rozier. 143 A.D. 3d 1258, 39 N.Y.S. 3d 340, October 7th, 2016, Appellate Division
Fourth Department defendant was convicted in the County Court, Erie County, Kenneth F. Case, J., of
criminal possession of a weapon in the second degree. Defendant appealed.
In People v. Jones. 134 A.D. 3d 1588, 22 N.Y.S. 3d 755 12-31-15, defendant was convicted after
jury trial in the Supreme Court, Monroe County, Robert B. Wiggins, A. J., of attempted rape in the first
degree, attempted criminal sexual act in the first degree, and assault in the second degree, and he appealed.
Holding: The Supreme Court, Appellate Division, held that reversal was required based on pervasive
prosecutorial misconduct on summation.
@ page 1589, the Appellate Division Fourth Department held: most egregiously, given that “the
potential danger posed to defendant when DNA evidence is presented as dispositive of guilt is by now
obvious, ” the prosecutor engaged in misconduct when she mis-characterized and overstated the probative
value of the DNA evidence in this case. In view of the substantial prejudice caused by the prosecutor’s
misconduct in this case, including the fact that the evidence of guilt is less that overwhelming.
In the case at bar, {A.D.A. Merrifield} failed to mention how she brazenly misstated to the Court
and Jury during “Closing Summations” by falsely stating: You can’t give points to the defense because the
prosecution’s case is so “overwhelming”. You can’t plug in things for themjust because you think maybe,
maybe there is something to this we are missing, Please see {Trial Transcript Closing Summation pages 1304
-41-

to 1305}.
In the case at bar, {A.D.A. Merrifield}, committed “pervasive prosecutorial misconduct” when
she deliberately failed to inform the jury or show the jury that {A.D.A. Merrifield} and defense counsel
possessed Scientific Forensic Evidence from the People’s Suffolk County Crime Laboratory clearly
establishing that their test results from defendant and the clothes he was wearing“did not detect a morsel
of evidence to support defendant firing his weapon”. The true facts are the test results from the “Peoples’’
Suffolk County Crime Laboratory is “overwhelming scientific proof defendant did not fire his weapon”.
{A.D.A. Merrifield} definitely misstated the probative value ofthe evidence when she falsely told the Court
and Jury “the prosecution’s case is so “overwhelming”. The prosecutions case is not overwhelming, when
the jury is not allowed to see the scientific evidence prosecution truly possessed showing there was no
evidence on the defendant and the clothes he was wearing to support that he fired a weapon, had the jury
seen that evidence they would have clearly seen defendant did not fire his weapon.
Time after time the prosecution was allowed to intentionally misstate the probative value of certain
issues to hide the truth that clearly proved defendant did not murder the victim. For failing to alert the Court
and jury to the facts that scientific testing from the prosecutions Crime Laboratory clearly establishing there
was no evidence detected on the defendant or the clothes he was wearing proving he was not the shooter,
& the prosecutor {Merrifield} engaged in misconduct when she mis-characterized and overstated the
probative value of the DNA evidence in this case defendant should be awarded a new and fair trial, “so this
time a jury of defendant’s peer’s can see all the evidence”, something Judge Braslow did not allow the
All Caucasian Jury he helped to pick for defendant’s trial.
As previously stated In People v. Redd. 141 A.D. 3d 546 (2016), Appellate Division Second
Department, defendant was convicted in the Supreme Court, Queens County, Lewis, J. of Second degree
murder, second degree abortion, and fourth degree criminal possession of a weapon, and he appealed.
The Supreme Court Appellate Division Second Department held: that “pervasive prosecutorial

-42-

misconduct required reversal” of defendant’s convictions and retrial because of vouching for the
credibility of a witness during Closing summation, including “misstating the evidence”, inter alia.
In the case at bar, evidence clearly established “prosecution & defense” allowed witnesses to
“Falsely testify defendant was drinking alcohol and was drunk”with out correcting them with
documented proof prosecution and defense possessed from the “N.Y.C. Police Dept.” stating defendant
was found to be fit for duty, and testimony from two Suffolk County Police Officers {Bardak & Walsh}
stating they did not smell alcohol on defendant. People v. Jones. 134 A.D. 3d 1588, 22 N.Y. 3d 755(1231-15), held : It is nevertheless mandated when the conduct of a prosecutor “has caused such substantial
prejudice to the defendant that he [or she] has been denied due process of law” a new trial is needed. In the
case at bar, during “closing summations” the prosecutor {A.D.A. Merrifieldj deliberately committed
“pervasive prosecutorial misconduct” by engaging in improper conduct, by “vouching for the
credibility of her star witness” James Jones, {the true murderer} during her closing summations. Not only
did {A.D.A. Merrifield} violate defendant’s due process right to a fair trial, {A.D.A. Merrifield} blatantly lied
during Closing Summations about her witness James Jones never changing his testimony when {A.D.A.
Merrifield} knew and had testimony from James Jones prior Grand Jury that was inconsistent from his trial
testimony about what transpired in the hallway before the victim was shot to prove James Jones gave two
completely different accounts about what transpired in the hallway when the victim was shot. During the
closing summations {A.D.A. Merrifield} committed “pervasive prosecutorial misconduct” by clearly
stating on the record: And I submit to you, ladies and gentlemen, tojudge James credibility, think about the
total recall that man had. Testified on Friday and came back Tuesday. Noting changed. Not an iota of his
testimony. I submit to you, that man will neverforget what happened that day, that place, like a bad video
in his mind, please see (Exhibit No. 8, trial transcript summation page 1341, lines 2 to 10}. As stated in
People v. Redd. 141 A.D. 3d 546 (2016), Appellate Division Second Department, Just vouching for
prosecutions witnesses credibility requires a reversal, but here, in the case at bar, {A.D.A. Merrifield}
knowingly misstated that the testimony of James Jones {the true murderer} never changed when {A.D.A.
Merrifield} knew and had documented proof James Jones gave two different accounts about what

-43-

transpired in the hallway when the victim was shot.
{2001 Grand Jury, James Jones first version of what occurred in the hallway}. {Prosecution}
knew at “defendant’s Grand Jury” after being asked what happened in the hallway, James Jones testified:
And 1 saw herfall down. Ilooked down the hall and I seen “Ezra” {defendant} standing there pointing the
gun, rushing towards us down the hallway. He shot another time as he was coming down the hallway and
then while she was laying on the floor, he reached into the room that she fell in andfired three more shots
at her, Please see {ExhibitNo. 9, Grand Jury page 37, lines 16 to 21, Jones}. Prosecutor: After the first pop,
you looked up and could see him with the gun? James Jones: Yes, I could see him with the gun aiming down
the hallway, Please see {Exhibit No. 10, Grand Jury page 38, line to 4, Jones}.
{2003, Trial, James Jones 2nd version ofwhat occurred in the hallway}, At defendant’s trial when
James Jones was asked what happened in the hallway: James Jones: When she stepped into the hallway,
I was- - stepped right behind her. I heard a pop, I looked down the hallway, I seen a figure standing there,
Please see { Exhibit No. 11, Trial Transcript page 983 lines 1 to 3, Jones}. Prosecutor: And then she fell
in the room. James Jones: Then she fell in the room. Prosecutor: What was - - when you saw the person
standing in the hallway, could you tell us, did you observe a weapon in their hand? James Jones: To be
honest, Ididn’t see the weapon until it came in the door. Prosecutor: Meaning what door? James Jones:
The doorway where she fell. This doorway here, when he reached in and startedfiring. Prosecutor: That
is the first time you saw the gun? James Jones: That is the first time I seen the gun. Prosecutor: And when
he was in the hallway, the person was in the hallway when Gwen was in the hallway and you were in the
hallway, just outside your bedroom, did you notice what the person was doing down the hall? James Jones:
No it wasjust like I said, when we walked out ofthe bedroom, it was a pop, it was a pop, and afigure coming
down the hallway. Please see {ExhibitNo. 12, Trial Transcript page 993, lines 6 to 25, Jones}.
In the case at bar, at defendant’s trial {A.D.A. Merrifield} obviously knew James Jones had just
gave prosecution at defendant’s trial “an inconsistent story” from defendant’s Grand Jury about what

-44-

transpired in the hallway where the victim was shot. {A.D.A. Merrifield} deliberately failed to correct James
Jones inconsistencies, Merrifield even failed to ask James Jones why did he give a different testimony about
what transpired in the hallway during the grand jury versus what he just testified happened at defendant’s
trial. At defendant’s 2001, Grand Jury, James Jones testified he saw {Ezra}, {the defendant} from down
the hallway and saw the weapon in his hand, please see {Exhibit No. 9, Grand Jury page 37, lines 16 to 17,
Jones}. At trial James Jones testified he saw an “unidentifiable figure” down the hallway and “did not see
a weapon in the hand”, please see {ExhibitNo. 11, trial transcript page 983, line 3, Jones}& {ExhibitNo.
12, Trial transcript page 9931ine 11 to 12, Jones}.
“Two testimonies do not get any more different than those two”, and you have {A.D.A.
Merrifield} committing “pervasive prosecutorial misconduct” by blatantly Misstating to the jury during
closing summation that “Not an Iota of James Jones testimony changed”. First of all, the prosecutor is
not allowed to vouch for the credibility of prosecutions witnesses, and {A.D.A. Merrifield} not only vouched
for Jones credibility, A.D.A. Merrifield knowingly lied about Jones never changing his story by lying to the
jury that “Not an iota of his testimony changed”, please see {Exhibit No. 8 Trial Transcript page 1341,
Closing Merrifield}. The deliberate Pervasive Prosecutorial Misconduct by {A.D.A. Merrifield} “has caused
such substantial prejudice to the defendant that defendant has been denied due process of law”, a new trial
is needed, please see People v.Jones. 134 A.D. 3d 1588, 22 N.Y. 3d 755(12-31-15). A.D.A. Merrifield’s
Conduct was in fact Pervasive Prosecutorial Misconduct that warrant’s a retrial”. Defendant’s trial
counsel {Obedin} who judge Braslow would not allow defendant to replace was also guilty of ineffective
assistance of counsel for his failure not to object or do anything about {A.D.A. Merrifield’s} intentional
pervasive prosecutorial misconduct throughout defendant’s trial and especially during Closing Summation.
It is nevertheless mandated when the conduct of a prosecutor “has caused such substantial prejudice to the
defendant “as did in this case at bar” that he [or she] has been denied due process of law”.
For the above mentioned deliberate acts of pervasive prosecutorial misconduct defendant confirmed

-45-

to this court to be true with documented records and more, defendant {Ezra Leslie} should be granted a new
and fair trial immediately. Prosecution certainly violated defendant’s Due Process rights to have a fair trial
by way of “Pervasive Prosecutorial Misconduct”.
Dated
Dannerrfora, N.Y.12929 '
Respectfully Submitted,

Pa Leslie, Din#03-A-3404
Defendant, “Pro-Se”
Clinton Correctional facility
P.O. Box 2001
Dannemora, New York 12929

Sworn to Before me on this
day of May, 2019
—>

Notary Public

cc:

LARRY JCHRISTON
NOTARY PUBLIC, STATE OF NEW YORK
NO: 01CH6287138
QUALIFIED IN CLINTON COUNTY
COMMISSION EXPIRES 08/05/1!/

State of N.Y. Attorney Generals
Conviction Review Bureau
Suffolk County District Attorney’s Office
S.C.D.A.{Timothy D. Sini}
&

N.A.A.C.P.
&

A.C.L.U.
&

Leslie Piles

-46-

